<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF COMMERCE, DEPARTMENT OF HOMELAND SECURITY, U.S. MARITIME ADMINISTRATION, SURFACE TRANSPORTATION BOARD, AND NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[Senate Hearing 109-1135]
[From the U.S. Government Printing Office]





                                                       S. Hrg. 109-1135

                           NOMINATIONS TO THE
                        DEPARTMENT OF COMMERCE,
                    DEPARTMENT OF HOMELAND SECURITY,
                     U.S. MARITIME ADMINISTRATION,
                     SURFACE TRANSPORTATION BOARD,
                AND NATIONAL TRANSPORTATION SAFETY BOARD

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
  66-490 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2006....................................     1
Statement of Senator Allen.......................................     9
Statement of Senator Burns.......................................    46
Statement of Senator DeMint......................................     3
    Prepared statement...........................................     4
Statement of Senator Dorgan......................................     3
Statement of Senator Inouye......................................    10
Statement of Senator Lott........................................    42
Statement of Senator Stevens.....................................     1

                               Witnesses

Cohen, Admiral Jay M., nominee to be Under Secretary for Science 
  and Technology, Department of Homeland Security................    10
    Prepared statement...........................................    11
    Biographical information.....................................    12
Connaughton, Sean T., nominee to be Administrator of the U.S. 
  Maritime Administration........................................    20
    Prepared statement...........................................    21
    Biographical information.....................................    22
Davis, Hon. Tom, U.S. Representative from Virginia...............     6
    Prepared statement...........................................     8
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     5
Nottingham, Charles D., nominee to be a Member of the Surface 
  Transportation Board...........................................    25
    Prepared statement...........................................    26
    Biographical information.....................................    27
Reed, Hon. Jack, U.S. Senator from Rhode Island..................     6
Sumwalt III, Robert L., nominee to be a Member of the National 
  Transportation Safety Board....................................    32
    Prepared statement...........................................    34
    Biographical information.....................................    34
Warner, Hon. John, U.S. Senator from Virginia....................     3
Wienecke, Nathaniel F., nominee to be Assistant Secretary for 
  Legislative and Intergovernmental Affairs, Department of 
  Commerce.......................................................    15
    Prepared statement...........................................    16
    Biographical information.....................................    17

                                Appendix

Wolf, Hon. Frank R., U.S. Representative from Virginia, prepared 
  statement......................................................    49
Response to written questions submitted by Hon. Barbara Boxer to 
  Admiral Jay M. Cohen...........................................    53
Response to written questions submitted by Hon. Conrad Burns to 
  Charles D. Nottingham..........................................    56
Response to written questions submitted by Hon. John McCain to 
  Admiral Jay M. Cohen...........................................    49
Response to written questions submitted by Hon. Trent Lott to:
    Admiral Jay M. Cohen.........................................    50
    Sean T. Connaughton..........................................    55
    Charles D. Nottingham........................................    58
    Robert L. Sumwalt III........................................    59
Response to written questions submitted by Hon. John E. Sununu 
  to:
    Admiral Jay M. Cohen.........................................    51
    Nathaniel F. Wienecke........................................    55

 
                           NOMINATIONS TO THE
                        DEPARTMENT OF COMMERCE,
                    DEPARTMENT OF HOMELAND SECURITY,
                     U.S. MARITIME ADMINISTRATION,
                   SURFACE TRANSPORTATION BOARD, AND
                  NATIONAL TRANSPORTATION SAFETY BOARD

                              ----------                              


                        THURSDAY, JULY 27, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. We're waiting for the Senators who will make 
some introductions, but before they arrive, I want to say that 
this morning we're going to hear from five of the President's 
nominees. Our Committee welcomes each of you and thanks you for 
your willingness to serve.
    Nathaniel Wienecke has been nominated to be Assistant 
Secretary for Legislative and Intergovernmental Affairs at the 
Department of Commerce. He has been very helpful to this 
committee in his current capacity and continues to provide 
valuable assistance with respect to a bill that I am very 
interested in, the Magnuson-Stevens Act and other matters.
    Admiral Jay Cohen is the nominee to be Under Secretary for 
Science and Technology for the Department of Homeland Security. 
If confirmed, he will oversee the research and development of 
the next generation of technology used to secure our country. 
The Committee recently reported a bill to foster American 
innovation and competitiveness, and we look forward to learning 
about Admiral Cohen's vision today.
    Sean Connaughton has been nominated to be Administrator of 
the Maritime Administration. MARAD seeks to protect the U.S. 
Merchant Marine shipbuilding ports and reserve shipping. Our 
committee approved a Maritime reauthorization bill last week, 
and we look forward to hearing from this nominee about what 
more should be done to enable MARAD to fulfill its mission.
    Charles Nottingham has been nominated to be a Member of the 
Surface Transportation Board, which monitors railways and 
services, as well as trucking, ocean shipping and moving van 
rate issues. As the demand on our railroads and transportation 
grows, the STB will play a heightened role in our Nation's 
economy.
    Robert Sumwalt has been nominated to become a Member of the 
National Transportation Safety Board. As many of you know, NTSB 
is vital to my home state given that a large percentage of 
Alaska can be reached only by plane. We have worked closely 
with the NTSB to reduce the number of pilot deaths and air 
crashes and we look forward to hearing from Mr. Sumwalt.
    Senators Domenici and Reed will be here to introduce Jay 
Cohen. Senators Allen and Warner and Congressman Davis are here 
to introduce Sean Connaughton and Charles Nottingham. And 
Senator DeMint to support Robert Sumwalt.
    Congressman Wolf has submitted a statement supporting Sean 
Connaughton.
    I have been notified that many nominees have their family 
and friends here today, and I hope the nominees will take the 
time to introduce them. We might do that now if they are 
willing to do that while we wait for the Senators.
    Mr. Wienecke, do you have family here today?
    Mr. Wienecke. I do, Mr. Chairman. My wife, Chantal and 
daughter, Kendell, and my parents, Paul and Jean Wienecke.
    The Chairman. Thank you very much for coming. We appreciate 
your presence.
    And Admiral Cohen, do you have family here? The Admiral is 
not here yet.
    Sean Connaughton, are you here?
    Mr. Connaughton. Yes, sir.
    The Chairman. Do you have family with you?
    Mr. Connaughton. My wife, Teresa, my daughter, Courtney, 
and unfortunately, my son had to travel back for a soccer game. 
He is on his way to North Carolina right now.
    The Chairman. Thank you. And Mr. Nottingham, are you here?
    Mr. Nottingham. Yes, sir.
    The Chairman. Do you have members of your family here?
    Mr. Nottingham. Yes, my wife, Catherine, my sons, Charles 
and Garner.
    The Chairman. Thank you very much.
    And Mr. Sumwalt, are you here?
    Mr. Sumwalt. Yes, Mr. Chairman. My wife, Anne and my 
daughter, Mackenzie.
    The Chairman. Well, we welcome all of you here. Senator 
Warner, there is a place right there by your name.
    Senator Warner. Well, it has gotten fancy in this room and 
I'm not sure how you activate this.
    When I was on this committee we used to use a natural 
voice, but now we have all kinds of things.
    The Chairman. Well, there is a microphone for you right 
there John, if you would like to sit there.
    Senator Warner. I like this one.
    The Chairman. Senator Dorgan, do you want to make a 
comment?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, I just want to make a comment 
for a brief moment to welcome Senator Warner of course, all of 
the colleagues who will come. I intend to support all of these 
nominees and thank them to be willing to serve their country. I 
did not want to miss the moment, however, for the nominee to be 
Chairman of the Surface Transportation Board. We have as you 
know, Mr. Chairman, we have for a long, long while have been 
suffering through these issues of rail rates in this country. 
We desperately need an aggressive Surface Transportation Board 
that will stand up for shippers and do the right thing. I am 
going to support Mr. Nottingham. I hope that he and I will 
engage often and see if we can get the Surface Transportation 
Board stand up for the consumers and the rail shippers of this 
country.
    But again, I will support all of these nominees, and I 
think the Administration has given us some good folks to 
consider for these important decisions.
    The Chairman. Senator DeMint, Senator Warner is here first. 
I know you are to support a nominee, but we will proceed with 
him if that is all right with you?
    Senator DeMint. Yes.
    The Chairman. Senator Warner, we are pleased to have your 
comments.

                STATEMENT OF HON. JOHN WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you Mr. Chairman and Senator Inouye 
and colleagues. I am currently chairing the Armed Services 
Committee, and we have a hearing with General Conway before us 
to be the next Commandant of the Marine Corps. However, I am 
pleased to speak on behalf of Sean Connaughton whom I have 
known. He has had a very distinguished career. I worked with 
him extensively when he was Chairman of the Board of 
Supervisors. I think one of the fastest growing counties in 
America, not just the United States, but America.
    And to Chip Nottingham, I wish him well. I have worked with 
him through the years, and he will do an excellent job as a 
public servant, both of these men.
    So with that, Mr. Chairman, and I ask indulgence to my good 
friends who I've come to speak for, actually it is better that 
I say less, and you say more.
    Thank you very much.
    The Chairman. Mr. Chairman, we welcome you, and we thank 
you very much for your statement.
    Senator Warner. I thank the presiding officer.
    The Chairman. Senator DeMint, do you have a person to 
introduce?

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. I thank you Mr. Chairman, and Co-Chairman 
Inouye. I would like to commend all of the nominees today. 
We're proud to be here to make your case. I am especially 
pleased to introduce to the Committee, Mr. Robert Sumwalt of 
Columbia, South Carolina, as a nominee to serve on the National 
Transportation Safety Board.
    I also, I think Mr. Chairman, you have already recognized 
Robert's wife, Anne, his daughter, Mackenzie, who are here to 
support his nomination today.
    When you meet Robert the first thing that comes through is 
his passion for transportation safety. His resume is evidence 
of this.
    Mr. Sumwalt has built a distinguished career in both 
aviation operations and safety program development. For 24 
years, he served as a pilot for major U.S. international 
carrier where he logged 14,000 flight hours and type rating in 
five aircraft. In addition, he has extensive experience as an 
airline captain, an airline check airman, an instructor pilot, 
and an air safety representative.
    Mr. Sumwalt's contributions to aviation safety through 
academic instruction and safety program development are too 
numerous to be named at this time, so I encourage each of you 
to take a thorough look at his list of accomplishments. 
However, I would like to point out that two of Mr. Sumwalt's 
aviation safety improvements have been recognized by 
prestigious industry awards: the Flight Safety Foundation Laura 
Taber Barbour Air Safety Award in 2003, and the Air Line Pilots 
Association Air Safety Award in 2004.
    In addition, Mr. Sumwalt has co-authored a book profiling 
recent aircraft accidents, and this is a rather large book that 
I have to confess that I haven't read all the way through 
myself, but clearly this gentleman has spent a lot of time 
studying how we can improve safety in airlines.
    Currently, Mr. Sumwalt serves as Manager of Aviation for 
SCANA Corporation, a Fortune 500 energy-based company. He 
oversees operations, maintenance and safety of company 
aircraft, the department's personnel, and management of the 
department's fiscal matters.
    The Safety Board's responsibility for accident 
investigations and safety recommendations is crucial to the 
safety and advancement of our Nation's transportation systems. 
It is extremely important that each Board Member have real-
world knowledge of transportation safety. Mr. Sumwalt not only 
has the required expertise, he also has an uncommon commitment 
to public safety. I am confident, that if confirmed, Mr. 
Sumwalt would be a valuable addition to the Board.
    I urge this committee to carefully consider Mr. Sumwalt's 
background and favorably report his nomination.
    I thank you for allowing me the opportunity to introduce 
this talented and distinguished nominee.
    Mr. Chairman, I yield back.
    [The prepared statement of Senator DeMint follows:]

Prepared Statement of Hon. Jim DeMint, U.S. Senator from South Carolina
    Thank you Chairman Stevens, Co-Chairman Inouye, I would like to 
commend all of the nominees here today on their nominations. But I am 
especially pleased to introduce to the Committee Mr. Robert Sumwalt of 
Columbia, South Carolina, as a nominee to serve on the National 
Transportation Safety Board (NTSB).
    I would also like to recognize Robert's wife. Anne, and his 
daughter, Mackenzie, who are here to support his nomination today.
    When you meet Robert, the first thing that comes through is his 
passion for transportation safety. His resume is evidence of this.
    Mr. Sumwalt has built a distinguished career in both aviation 
operations and safety program developments. For 24 years, he served as 
a pilot for a major U.S.-based international carrier where he logged 
14,000 flight hours and type rating in five aircraft. In addition, he 
has extensive experience as an airline captain, an airline check 
airman, an instructor pilot, and an air safety representative.
    Mr. Sumwalt's contributions to aviation safety through academic 
instruction and safety program development are too numerous to be named 
at this time, so I encourage each of you to take a thorough look at his 
list of accomplishments. However, I would like to point out that two of 
Mr. Sumwalt's aviation safety improvements have been recognized by 
prestigious industry awards: the Flight Safety Foundation Laura Taber 
Barbour Air Safety Award in 2003, and the Air Line Pilots Association 
Air Safety Award in 2004.
    In addition, Mr. Sumwalt has co-authored a book profiling recent 
aircraft accidents entitled, Aircraft Accident Analysis: Final Reports 
and has authored the aircraft accident and incident investigation 
section in The Standard Handbook for Aeronautical and Astronautical 
Engineers.
    Currently, Mr. Sumwalt serves as Manager of Aviation for SCANA 
Corporation, a Fortune 500 energy-based company. He oversees 
operations, maintenance and safety of company aircraft, the 
department's personnel, and management of the department's fiscal 
matters.
    The NTSB's responsibility for accident investigations and safety 
recommendations is crucial to the safety and advancement of our 
Nation's transportation systems. It is extremely important that each 
NTSB Board Member have real-world knowledge of transportation safety. 
Mr. Sumwalt not only has the required expertise, he also has an 
uncommon commitment to public safety. I am confident, that if 
confirmed, Mr. Sumwalt will be a valuable addition to the Board.
    I urge this committee to carefully consider Mr. Sumwalt's 
background and favorably report his nomination.
    Thank you for allowing me the opportunity to introduce this 
talented and distinguished nominee.

    The Chairman. Thank you, Senator.
    Senator Domenici, do you have a statement to make for one 
of the nominees?

              STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Domenici. I will be brief, but thank you for giving 
me a couple of moments. I am here to speak on behalf of and 
introduce Admiral Jay Cohen, the President's nominee to be 
Under Secretary of Homeland Security for Science and 
Technology.
    Admiral Cohen graduated from the Naval Academy and received 
a Master's degree from Massachusetts Institute of Technology.
    He is a 35-year veteran of the Navy, most recently serving 
as the Chief of Naval Research. In that role, he has championed 
many significant programs for the Marines and the Navy, 
including some that I have been personally involved in and 
watched him professionally undertake.
    I got to know the Admiral through two important projects 
that we have worked on together over the years. One is called 
the Magdalena Ridge Observatory, kind of a ``break the mold'' 
observatory approach on the top of a mountain with a different 
structure for observatories. This project will send huge new 
photographs to the world of what is going on in space.
    And the second was an Expeditionary Unit Water 
Purification. The Expeditionary Unit Water Purification Program 
has had much success in the past few years.
    Mr. Chairman, you have heard of the work the units 
performed last summer, providing 450,000 gallons of fresh water 
for the Coast Guard Loran Station at Port Clarence, Alaska.
    Additionally, last September two of the units, basically 
research units, which are moving ahead dramatically with 
desalination, were deployed to Mississippi to provide drinking 
water for the victims of Hurricane Katrina.
    Clearly, to this Senator, the Expeditionary Unit Water 
Purification Program is meeting some great goals, much of that 
due to the leadership qualities of this nominee. He is truly 
capable of accomplishing what is required in this new job, as 
he has spearheaded projects as the Chief of Naval Research. He 
will do the same in this new capacity.
    So I believe he will bring this innovative, forward-
thinking approach to Homeland Security which you are here to 
fill a vacancy at the most expeditious time. I hope that will 
occur, and the man will be this gentleman, and I thank you for 
giving me time to introduce him, Mr. Chairman and fellow 
Senators.
    The Chairman. Thank you very much Senator.
    Senator Reed, you have a comment about Mr. Cohen also?
    Senator Reed. I do.

                 STATEMENT OF HON. JACK REED, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Reed. Mr. Chairman and members of the Committee, I 
am pleased to join Senator Domenici in introducing Admiral Jay 
Cohen. He has an extraordinarily distinguished career in the 
United States Navy, and let me emphasize as Senator Domenici 
did, his service of 5\1/2\ years as the Chief of Naval 
Research. There he was responsible and effective in managing 
complicated technology projects, delivering new technology and 
new innovation to the fleet and with those skills, he will be 
superbly prepared to assume his new responsibilities in the 
Department of Homeland Security.
    He also understands very well the need to develop and 
maintain an industrial base that will support the technology 
efforts of the Department, and that industrial base is not just 
the facilities, but also the designers and the engineers that 
are so critical to maintaining our progress and continuing our 
leadership in so many different roles. As Senator Domenici 
pointed out, Admiral Cohen is a graduate of the Naval Academy, 
and I was reluctant to come here today until he informed me 
that the Navy football team lost all 4 years while he was at 
Navy. This too, endears me to Admiral Cohen, but I recommend 
his nomination wholeheartedly.
    The Chairman. Thank you very much Senator.
    Congressman Tom Davis of Virginia, you have a comment to 
make about one of our nominees.

                 STATEMENT OF HON. TOM DAVIS, 
               U.S. REPRESENTATIVE FROM VIRGINIA

    Representative Davis. Senator, two nominees with whom I 
have had a long relationship, Sean Connaughton and Chip 
Nottingham. I have known Mr. Connaughton and Mr. Nottingham for 
many years. I have had a long relationship with them. I 
remember Sean Connaughton who was nominated to serve as the 
Administrator of the Maritime Administration. He is a graduate 
of Kings Point, the Merchant Marine Academy and is a Maritime 
attorney by trade, but is well aware of the central role that 
Maritime plays in the global economy. It is also integral to 
our national security, so I think this is a man of very high 
caliber. I worked with Sean. He has been Chairman of the Board 
of Supervisors in Prince William County which is in my 
district. Since 1999, this is one of the fastest growing 
counties in the country. Such growth could easily overwhelm 
many local governments, but under Sean, the county has earned a 
reputation of being a great place to do business and to live. 
They are known for their sound financial management.
    Just a couple specifics, Prince William County enjoys a AAA 
bond rating with a handful of jurisdictions around the country 
that does that. They got that under his leadership. They've 
actually enjoyed two ratings upgrades since he assumed the 
office. They've also dramatically increased their fund balance, 
their ``rainy day'' account, and they have consistently run 
budget-year surpluses.
    Finally, under Sean, Prince William has been a leader in 
using information technology and other process improvements to 
make government efficient and user-friendly. Like Sean, I was 
Chairman of the neighboring county in Fairfax before I came to 
Congress, but I just think he is an excellent nominee, and I 
would urge his support.
    I also turn to Chip Nottingham, who is a graduate of Wesley 
University in Connecticut, but I have worked continuously with 
Chip since 1994 when I was first selected to Congress. He was 
my first Counsel when I came to Congress in 1995, and he rose 
up the ranks to serve as my Chief of Staff and was also Chief 
of Staff to Congressman Bob Goodlot. He has worked with me as 
Counsel on the Government Reform Committee as well, which I now 
Chair.
    As a senior staffer, no job is too big or too small for 
Chip to handle with care and to bring successful closure. He is 
a problem solver. He has extraordinary interpersonal and 
communication skills. This Committee is likely well aware of 
his transportation expertise--more than 8 years of working at 
the highest levels of transportation policy and management at 
the State and Federal levels.
    But I would like to emphasize Chip's passion and experience 
in delivering effective government management strategies, 
safeguarding taxpayer dollars and bringing positive reforms to 
complex government organizations. As Chairman of the House 
Government Reform Committee, I am especially pleased to report 
that Chip is a strong and effective manager and a careful 
steward of taxpayer dollars. Whether it was earning the trust 
of Federal employees and Federal retirees while handling civil 
service issues for me; helping us to reform the District of 
Columbia and as you know, write the Control Board Legislation, 
or more recently when he was CEO of the Virginia Department of 
Transportation and initiated more than 100 management reforms 
including creating an Inspector General Office and Chief 
Environmental and Regulatory Affair's officer, Chip has always 
had a passion for making government work better in a more 
transparent responsive manner.
    If Chip is confirmed as Chairman of the STB, he will become 
the Chief Executive Officer of an agency that faces a number of 
challenges. Approximately 60 percent of the STB's 140-person 
workforce is retirement-eligible, and the agency has not been 
reauthorized in many years due to competing interest among 
STB's stakeholders. The STB is in need of a strong, proven 
leader with a record of problem solving and public service, and 
I think Chip Nottingham is the right person for the job. And I 
appreciate the opportunity to be here and share these thoughts 
with you today.
    [The prepared statement of Representative Davis follows:]

Prepared Statement of Hon. Tom Davis, U.S. Representative from Virginia
    Chairman Stevens, Co-Chairman Inouye, members of the Committee, 
today I have the distinct pleasure of introducing two individuals here 
today: Sean Connaughton and Chip Nottingham. I have known both Mr. 
Connaughton and Mr. Nottingham for many years, and am pleased President 
Bush has nominated them for their respective positions in his 
Administration. I recommend this committee's and the Senate's speedy 
confirmation of these outstanding public servants.
    I will begin my remarks with Sean Connaughton, nominated to serve 
as the Administrator of the Maritime Administration.
    The Members of this committee are well aware of the central role 
maritime trade plays in our Nation's--and the global--economy. It is 
also integral to our national security. Thus, it is of the utmost 
importance that the Maritime Administrator be of the highest caliber. 
President Bush has done well to nominate Sean to fill this important 
role.
    I have worked with Sean on numerous occasions in recent years. The 
11th Congressional District of Virginia, which I am honored to 
represent, is comprised of large portions of Fairfax County and Prince 
William County, Virginia. As you know, Mr. Connaughton has served as 
Chairman of the Prince William County Board of Supervisors since 1999.
    Prince William County is experiencing the same explosive population 
growth felt throughout all of Northern Virginia. Such growth could 
easily overwhelm many local governments; however, under Sean, the 
county has earned the reputation of being a great place to both do 
business and reside.
    Prince William County is also known for its sound financial 
management, due in large part to the abilities of Chairman Connaughton. 
A few specifics: Prince William County enjoys a AAA bond rating, having 
enjoyed two ratings upgrades since Sean assumed office. Prince William 
has also dramatically increased its fund balance, or ``rainy day'' 
account and has consistently run year-end budget surpluses. Finally, 
under Sean. Prince William has been a leader in using information 
technology and other process improvements to make government more 
efficient and user-friendly.
    Like Sean, I have served as the Chairman of a County Board before 
coming to Congress. I know the myriad challenges inherent in this 
position, and am impressed with the job Sean has done. Sean's 
impressive record as an executive, coupled with his extensive 
experience in and knowledge of maritime matters, give me every 
confidence that he will bring the same level of accomplishment to the 
Maritime Administration as he has to Prince William County. I urge your 
support of his confirmation.
    I turn now to Chip Nottingham, with whom I have worked continuously 
since 1994. He served as my first Counsel when I came to Congress in 
1995 and rose up the ranks to serve as my Chief of Staff. He has also 
worked for me as Counsel on the Government Reform Committee.
    As a senior staffer, no job was too big or too small for Chip to 
handle with care and bring to successful closure. He is a problem-
solver and has extraordinary interpersonal and communications skills. 
This committee is likely well aware of his transportation expertise--
more than 8 years working at the highest levels of transportation 
policy and management at the state and Federal levels. What I'd like to 
emphasize today is Chip's passion and experience in delivering 
effective government management strategies, safeguarding taxpayer 
dollars, and bringing positive reform to complex government 
organizations.
    As Chairman of the House Government Reform Committee, I am 
especially pleased to report that Chip is a strong and effective 
manager and careful steward of taxpayer dollars. Whether it was earning 
the trust of Federal employees and Federal retirees while handling 
civil service issues for me; helping me to reform the government of the 
District of Columbia when we created the Financial Control Board and 
the Chief Financial Officer of DC; or more recently when he was CEO of 
VDOT and initiated more than 100 management reforms, including creating 
an Inspector General Office and a Chief Environmental and Regulatory 
Affairs Officer, Chip has always had a passion for making government 
work better and in a more transparent and responsive manner.
    If Chip is confirmed as Chair of the STB, he will become the Chief 
Executive Officer of an agency that faces a number of challenges. 
Approximately 60 percent of the STB's 140-person workforce is 
retirement eligible, and the agency has not been reauthorized in many 
years due to competing interests among the STB's stakeholders. The STB 
is in need of a strong, proven leader with a record of problem solving 
and public service. Fortunately, in Chip Nottingham, we have the right 
person for the job.
    Thank you for the opportunity to appear here today. Again, I urge 
your support for these two fine individuals.

    The Chairman. Mr. Chairman, we are delighted that you would 
take the time to support these two nominees and we appreciate 
any questions for the Congressman. Thank you, Mr. Chairman. I 
appreciate you being here.
    Senator Allen, do you have an introduction?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Yes, I do Mr. Chairman. Congressman Davis 
has worked at the local government level and has worked with 
both of these gentlemen. Particularly, understanding Sean 
Connaughton's work, and I thank Congressman Davis for coming 
over here for them.
    Let me just say a few things about two of the nominees. The 
third one by the way, Robert Sumwalt, I've actually had the 
pleasure of meeting him with Senator DeMint, and I'm sure he'll 
extol his virtues, but I endorse his nomination as well.
    As far as Sean Connaughton to be Administrator of the MARAD 
and Chip Nottingham to be a Member of the Surface 
Transportation Board, both of these are long time Virginians 
with an exceptional records of service to the people of the 
Commonwealth.
    Sean Connaughton has done an absolutely superb job as 
Chairman of the Prince William Country Board of Supervisors. He 
has brought in new, good-paying jobs. He has balanced the needs 
that the fighting and disputes that the country has over growth 
and where the growth should be. He has done an outstanding job. 
It is a very diverse and growing county. They are getting new 
jobs, new investment. It is a really great place to live. I was 
there about a month ago dedicating a 9/11 memorial for those 
who perished on 9/11 from Prince William County, and what Sean 
has really shown is he is a man sticking to principles, well-
grounded, but also working with all parties to achieve positive 
goals for the people of a very diverse, large and growing 
county. He is particularly well-qualified for this position.
    In addition to that, being a graduate of not just of George 
Mason's law school, but a graduate of the U.S. Naval War 
College. He's served in the Navy Reserve and has been until 
this year since 1986. He was a Merchant Marine. He served our 
country in the Coast Guard. He's results-oriented and that is 
what we need with Maritime. He's results-oriented, can-do, get 
things done, and Sean Connaughton, I have no question in my 
mind would be exceptional in this position.
    On Chip Nottingham, Chip served in Virginia, the 
Commonwealth Transportation Board, Commissioner of the Virginia 
Department of Transportation, a tough, but a very important 
job. He has been a champion of increased investment. He is also 
one who looks for innovative, creative ways of expanding the 
transportation pie. One of the key Administration successes I 
had when I was Governor was what is called a Private 
Transportation Act, and Chip Nottingham tested and expanded and 
utilized the approach, and I think that's the sort of creative 
leadership we need at the national level, and Chip Nottingham 
is a person again with a proven record of performance, a person 
who has the right principles. He is hands-on. He solves 
problems and that's the sort of person we need on the Surface 
Transportation Board, and I recommend both of these gentlemen 
with all my highest recommendations and look forward to their 
confirmation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Inouye, do you have any comments?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I'd just like to say I am pleased that the 
adopted son of Hawaii, Admiral Cohen, is one of the nominees, 
and I am certain that he will continue service to our Nation 
with great distinction.
    Thank you.
    The Chairman. Thank you, Senator.
    Now if the nominees would please take their places at the 
table. Admiral Cohen, we did not have a chance to see whether 
you had family members here? Do you have any family members 
here today, sir?
    Admiral Cohen. I do, Chairman Stevens, and I am so pleased 
to introduce my wife Nancy, her mother, Lee Noll, a World War 
II Navy Nurse; and Eleanor Rickover who we consider part of our 
family. She is Admiral Rickover's widow, a career Navy Nurse, 
also Admiral Rickover who both of you, and many on the 
Committee knew so well, taught us all to change the world and 
taught us the value of standards. My brother-in-law and sister-
in-law, Sarah and Don Clements, and the future generation 
Hailey Clements and if we can get her to Hawaii, I think 
Senator she will compete very well for Miss Hawaii.
    The Chairman. Well thank you very much for bringing these 
guests here. It certainly brings back memories for Senator 
Inouye and I and we're particularly pleased to see you here 
ladies, thank you for joining us.
    Let us proceed through the list. Since you have just 
spoken, Admiral, why don't we take you first? We would be 
pleased to have any statement you wish to make.

    STATEMENT OF ADMIRAL JAY M. COHEN, NOMINEE TO BE UNDER 
             SECRETARY FOR SCIENCE AND TECHNOLOGY, 
                DEPARTMENT OF HOMELAND SECURITY

    Admiral Cohen. Chairman Stevens, Senator Inouye, Members of 
the Committee, I am greatly pleased to appear before the 
Committee as you consider the President's nomination of myself 
to be the next Under Secretary for Science and Technology of 
the Department of Homeland Security.
    I am deeply honored and humbled that President Bush has 
nominated me to serve this great country and its people. If 
confirmed, I look forward to the opportunity and privilege to 
serve with the dedicated men and women, scientists, engineers 
and professionals who are working to secure our homeland and 
defend our freedoms.
    Because of the number of people that you are considering 
today, Mr. Chairman, I will ask that my written statement be 
made part of the record and I will just say at the end that if 
confirmed, I commit to working with you and your staff and 
Chairman Stevens and Senator Inouye, I want to commend both 
staffs who are extremely professional, and I appreciate their 
vetting me and also their good advice. And if confirmed, I will 
work very closely with them. I think they help significantly in 
establishing the Department of Homeland Security, a very 
complex Department which is still maturing.
    I look forward to working with government departments and 
all agencies, business both large and small, academia, 
laboratories, international partners, and innovators to 
discover and develop the best technologies and capabilities to 
those who are charged with protecting America, our homeland, 
today and tomorrow.
    Now with that, and a time you deem appropriate, I am 
pleased to answer the Committee's questions.
    [The prepared statement and biographical information of 
Admiral Cohen follow:]

    Prepared Statement of Admiral Jay M. Cohen, Nominee to be Under 
 Secretary for Science and Technology, Department of Homeland Security
    Chairman Stevens and Senator Inouye, members of the Committee, I am 
pleased to appear before this committee as you consider the President's 
nomination of myself to be the next Under Secretary for Science and 
Technology at the Department of Homeland Security.
    I am deeply honored and humbled that President Bush has nominated 
me to serve this great country and its people. If confirmed, I look 
forward to the opportunity and privilege to serve with the dedicated 
men and women, scientists, engineers and professionals who are working 
to secure our homeland and defend our freedoms.
    I am joined today by family and friends. I would like to recognize 
my wife Nancy and her Mom, Lee Noll, a World War II Navy Nurse and 
widow of Lt. Col. Don Noll, a career Marine, both members of the 
``greatest generation.'' My parents, Sol and Sally Cohen, who are no 
longer with us, were children of immigrants whose first view of America 
and its promise of freedom was the Statue of Liberty in New York 
harbor. They instilled in me a love of country and an ethos of service 
which has guided me throughout my naval career.
    Since my nomination I have been asked, why after a full Navy career 
and nearly 6 years as the Department of the Navy Chief of Naval 
Research, I would volunteer to continue my public service. The answer 
is straight forward--the United States and the world's democracies are 
in a life and death conflict with terrorists who want to destroy the 
freedoms which we hold so dear. Our homeland has been attacked and 
remains at risk. During my tenure at the Office of Naval Research 
(ONR), especially after 9/11, I learned firsthand the incredible value 
that a sustained, customer focused basic and applied research program 
adds to America's ability to bring advanced technology to our (and our 
allies) asymmetric advantage against the enemies of freedom. It can 
mean the difference between life and death, victory or defeat.
    The incredible economic engine which powers our economy and 
security is based on the innovation of citizens, research organizations 
and industry in a free society. The vision, guidance and accountable 
investment which only our Federal Government is capable of making in 
science and technology year in and year out has been crucial to the 
technological and economic strength of the United States. If the 
Administration and you consider that my experience leading a world-
class technology organization like ONR will benefit the maturing value 
of Science and Technology to further enhance the Department of Homeland 
Security mission to protect and defend the United States, I would be 
honored to serve and contribute to America's defense and continued 
technological advancement.
    If confirmed, I commit to working with you and your staff, 
government departments and agencies, business (large and small), 
academia, laboratories, international partners, and innovators to 
discover, develop and deliver the best technologies and capabilities to 
those charged with protecting our homeland, today and tomorrow.
    I am pleased to answer the Committee's questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Jay Martin 
Cohen.
    2. Position to which nominated: Under Secretary for Science and 
Technology at the Department of Homeland Security.
    3. Date of Nomination: June 28, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.
        Office: None.

    5. Date and Place of Birth: Dec. 12, 1946; New York, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage): My spouse, Nancy Lee 
Cohen is not employed and we have no children.
    7. List all college and graduate degrees. Provide year and school 
attended.

        1964-1968, United States Naval Academy, Annapolis, MD, B.S.

        1970-1972, Joint Program, Massachusetts Institute of 
        Technology, Cambridge, MA and Woods Hole Oceanographic 
        Institution, Woods Hole, MA--two degrees--Joint MIT/WHOI Ocean 
        Engineering Degree and MIT Masters Degree in Naval Architecture 
        and Marine Engineering.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        1985-1988, Commanding Officer, USS HYMAN G. RICKOVER (SSN 709).

        1988-1989, Senior Member, Atlantic Fleet Nuclear Propulsion 
        Examining Board.

        1989-1991, Director, Operational Support, Office of Naval 
        Intelligence.

        1991-1993, Commanding Officer, USS L Y SPEAR (AS 36).

        1993-1997, Deputy Chief of Navy Legislative Affairs, Dept. of 
        the Navy.

        1997-1999 Director, Navy Y2K Office.

        1999-2000, Deputy Director for Operations (Joint Staff J-3).

        2000-2006, Chief of Naval Research, Dept. of the Navy.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    United States Naval Post Graduate School Board of Advisors Member 
(Monterey, CA) in Chief of Naval Research Chair.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years: None.
    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    Memberships for entire past 10 years:

        Society of Naval Architects and Marine Engineers

        Sigma Xi

        United States Naval Academy Alumni Association

        United States Naval Institute

        Army Navy Country Club (Arlington, VA)

        Army Navy Club (Washington, DC)

        Naval Submarine League

        Porsche Club of America

        Mercedes Benz Club of America

        Toy Train Collectors Association

        Lionel Railroader Club

    Membership since 2000:

        American Society of Naval Engineers

        Business and Higher Education Forum (as Chief of Naval 
        Research)

    Membership since 2006:

        Disabled American Veterans

    To my knowledge none of the above restrict membership.

    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        1967 USNA Trident (honors) Scholar
        1970 MIT/WHOI U.S. Navy Burke Scholar

    Military Medals:

        Distinguished Service Medal
        Defense Superior Service Medal (2)
        Legion of Merit (6)
        Meritorious Service Medal (3)
        Navy Commendation Medal (2)
        Navy Achievement Medal

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I authored three articles;

        ``The Deep Questions,'' Naval Institute Proceedings, Jan. 1969 
        (a discussion of deep diving research submarines).

        Two articles in the American Society of Naval Engineers 
        Journal, one in the 1970s and one in the 1980s. These articles 
        were the publication of my technical research theses at the 
        U.S. Naval Academy and MIT dealing with research submarine 
        design and motion response of a catamaran surface ship in a 
        seaway respectively.

        As Chief of Naval Research from June 2000 until January 2006, I 
        gave scores of technical ``speeches'' at professional 
        conferences. Additionally, I conducted several interviews with 
        technical and professional publications, (i.e., Defense News, 
        Under Sea Technology, SeaPower, etc.) and my comments at 
        symposia and other technical meetings were referred to on 
        numerous occasions in defense and scientific media. All of 
        these were in support of Department of Defense and Navy goals/
        initiatives.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    I never testified (orally or in writing) before Congress in a non-
government capacity.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Annual testimony as Chief of Naval Research before the House and 
Senate in support of the President's Department of the Navy Science and 
Technology Budget request.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will either divest my holdings or recuse myself as recommended/
required by the Government Ethics' Office.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes--In Jan. 1993, when my Father and Stepmother were killed in a 
traffic accident, my Stepsister subsequently protested my Father's will 
in the 17th Judicial Circuit Court, Broward County, FL. The estate was 
closed/settled out of court in Dec. 1994.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I have served honorably throughout nearly 42 years on active duty 
in the United States Navy, representing our country around the world, 
with governments, military, industry, academia, professional groups and 
the Executive Branch and Halls of Congress. For the past 13 years, I 
have been assigned duties continuously in Washington, D.C., at the 
highest levels of the Department of the Navy and Joint Staff/Department 
of Defense leading men and women in all the services as well as 
hundreds of dedicated government service and contract support 
civilians. I have never shirked my responsibility for the care and 
development of the people assigned to my commands, while holding both 
military and civilian personnel accountable for their performance and 
behavior. I have always been guided by doing the right thing, not the 
expedient thing. I am excited about the opportunity (if confirmed by 
the Senate) to serve the United States, and the President at the 
Department of Homeland Security, by bringing my experience and talents 
to the fight against terrorism through the effective and rapid 
application of science and technology to our brave men and women who 
serve in the many DHS agencies to protect America.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? If so, please explain.
    Last year, in the Spring of 2005, while I was serving as the Chief 
of Naval Research (CNR), responsible for the Department of the Navy 
(DON), Office of Naval Research (ONR), I became aware of a situation 
with a senior (GS-15) ONR employee (Dr. Maribel Soto). Specifically, I 
received multiple informal allegations and a formal (written) complaint 
that Dr. Soto had created an emotionally abusive workplace at ONR, by 
abrasive verbal and written statements insulting and derogatory to both 
subordinate and supervisory personnel. When my verbal counseling of Dr. 
Soto was not effective in correcting the situation, in June 2005, I 
consulted personally with the DON General Counsel (Hon. Alberto Mora), 
the Deputy Assistant Secretary of the Navy (DASN-Civilian Human 
Resources, Ms. Patricia Adams and her counsel/staff) and the DON Deputy 
Inspector General (Ms. Jill Loftus). They informed me that as a 
Commanding Officer, once such allegations of a hostile workplace 
environment were formally identified to me that I had to remove the 
offending individual from said workplace. To ensure there would be no 
question of the objectivity of actions I might have to take as CNR in 
this matter, I requested that the DASN-Civilian Human Resources (above 
me in the DON chain of command) have an independent ONR ``Command 
Climate Survey'' done by her counsel to determine the validity and 
extent of workplace problems associated with Dr. Soto's reported 
behavior. That initial survey was completed in July 2005 and the 
results substantiated the allegations involving Dr. Soto. As a result, 
on August 3, 2005, I formally (in writing) reassigned Dr. Soto from her 
supervisory position at ONR to a temporary research assignment at the 
Naval Research Laboratory (NRL) in Washington, D.C., until a more 
detailed/comprehensive investigation was completed. DASN-Civilian Human 
Resources then initiated a formal investigation into the extent of Dr. 
Soto's behavior and its impact on ONR command effectiveness and morale. 
When this investigation was completed and reviewed by CNR and the 
responsible DON leadership, appropriate action would be taken with Dr. 
Soto.
    Dr. Soto denied any wrongdoing on her part and interpreted her 
temporary re-assignment from ONR to NRL to be prejudicial and formally 
grieved my action to my superiors in the DON. Before I left the Office 
of Naval Research on January 20, 2006 (a normal relief after nearly 6 
years as CNR) and retired from the Navy on February 1, 2006 (that date 
scheduled since May 2005), I was informed by the DON Office of the 
General Counsel and DASN-Civilian Human Resources that Dr. Soto's 
grievance of my actions had been investigated and was not 
substantiated. Her grievance against me was denied as was Dr. Soto's 
request that my reassignment of her be overturned. To my knowledge, Dr. 
Soto remains on temporary reassignment outside ONR as the formal 
investigation results undergo review and DON leadership decides what 
action is to be taken in this matter. The facts in this matter may be 
substantiated with DON Office of General Counsel, DASN-Civilian Human 
Resources and DON Inspector General.
    Other than the above, in my 38 years of commissioned service as a 
U.S. Navy officer, I have no knowledge of any other accusation (formal 
or informal) involving sexual harassment or discrimination on the basis 
of sex, race, religion or any other basis involving me.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much. All of your statements 
will be printed in the record in full. You may summarize them, 
or read them, or whatever you wish to do. We thank you, 
Admiral.
    The next person that I would call on would be Nathaniel 
Wienecke who is to be Assistant Secretary of Commerce.

              STATEMENT OF NATHANIEL F. WIENECKE,

              NOMINEE TO BEASSISTANT SECRETARY FOR

           LEGISLATIVE AND INTERGOVERNMENTAL AFFAIRS,

                     DEPARTMENT OF COMMERCE

    Mr. Wienecke. Chairman Stevens, Co-Chairman Inouye, and 
members of the Committee, it is a privilege for me to appear 
before you today as the nominee to be Assistant Secretary for 
Legislative and Intergovernmental Affairs at the Department of 
Commerce. I do have a brief statement.
    I would like to thank President Bush for nominating me, and 
I am also very grateful to Secretary Gutierrez for supporting 
my nomination. It is a tremendous honor to work under his 
leadership at the Department.
    Thank you for allowing me to introduce my family. I am 
truly grateful for the love, support and great sacrifices of my 
wife and daughter. It is only because of them that I sit before 
you today. Also, throughout my life, my parents have made 
countless hard choices for my benefit and I thank them as well. 
Thank you all.
    I would also like to thank the career sector of the 
Department of Commerce. They are dedicated public servants, 
particularly Karen Swanson-Woolf and Jim Schufrieder, Clark 
Reid and Jim Wasilewski. The American people are better for 
their service. Your staff and the Committee are wonderful to 
work with. They pay attention to the details and are very 
forceful advocates for your legislative priorities. Over the 
past 5 years I have had the opportunity to work with every 
Member of the Senate and the House. If confirmed, I pledge to 
work closely with all of our stakeholders in a fair and honest 
manner without regard to position or party. As a former 
Congressional aide, I understand that the livelihood, quality-
of-life, and very often the bottom line of your constituents 
can be affected by the Department's responsiveness to your 
inquiries.
    If I am fortunate enough to be approved by the Committee 
and confirmed by the Senate, I pledge to work with every Member 
of this committee, the Senate and the entire Congress to meet 
your needs.
    Thank you very much and I'll take any questions.
    [The prepared statement and biographical of Mr. Wienecke 
follow:]

 Prepared Statement of Nathaniel F. Wienecke, Nominee To Be Assistant 
Secretary for Legislative and Intergovernmental Affairs, Department of 
                                Commerce
    Chairman Stevens, Co-Chairman Inouye, and distinguished members of 
the Committee, it is a privilege for me to appear before you today as 
the nominee to be Assistant Secretary for Legislative and 
Intergovernmental Affairs at the Department of Commerce. I deeply 
respect the great traditions of the Senate and am both humbled and 
honored to be considered for this position. I would like to thank 
President Bush for nominating me, and I am also very grateful to 
Secretary Gutierrez for supporting my nomination. It is a tremendous 
honor to work under his leadership at the Department of Commerce.
    I would like to introduce my wife, Chantal, and my daughter, 
Kendall. It is only with their love, support and great sacrifice that I 
sit before you today, and I am truly grateful for their support. My 
parents, Paul and Jean Wienecke, are here today, and I would like to 
recognize them as well. The hard choices they have made for my benefit 
and that of my siblings are countless. Thank you, Chantal, Kendall, Mom 
and Dad for your unwavering support.
    I would also like to commend the career staff of the Department of 
Commerce. They are dedicated, professional and always up to the task. 
The American people are better off for their service. Additionally, 
Chairman Stevens and Co-Chairman Inouye, I would like to commend the 
Commerce Committee staff--it is a pleasure to work with them. They 
focus on the details and are forceful advocates for your legislative 
priorities.
    Mr. Chairman, I firmly believe that America's strength lies in the 
ingenuity and entrepreneurial spirit of its citizens. Serving at the 
Department of Commerce, where our mission every day is to ``foster, 
promote, and develop the foreign and domestic commerce'' of the United 
States is a distinct honor and privilege. If confirmed, I pledge to 
continue working in partnership with you and the Committee to address 
the concerns and needs of the American public. Over the past 5 years, I 
have served in a variety of positions at the Department and have had 
the opportunity to work with our incredibly diverse portfolio, managed 
by 12 bureaus and under the oversight of 21 different Congressional 
committees.
    During my tenure at the Commerce Department, I have had the 
opportunity to work with almost every Member of the Senate and House 
and most of our Nation's Governors. If confirmed, I pledge to work 
closely with our stakeholders to provide them timely and accurate 
information about the Department's programs and policies. I will do so 
fairly and without regard to position or party. As a former 
Congressional aide, I understand that the livelihood, quality-of-life 
or bottom line of your constituents can be affected by the Department's 
responsiveness to your inquiries on their behalf.
    The issues faced by your constituents vary greatly across America. 
Whether the unique challenges faced by Alaskan Natives, the treasured 
ecosystem of Hawaii, or the reinvigoration of the Gulf Coast, each 
state and each region has its own unique needs. I am committed to 
helping you address them. Programs at the Department of Commerce affect 
people personally--whether it be promoting economic development in 
distressed communities, enforcing our trade laws, or helping small 
businesses protect their newest innovations, there are no small or 
unimportant issues.
    If confirmed by the Senate, there are three priorities on which I 
will focus:
    First, I will be a strong advocate for the Administration's 
legislative priorities that are before the Congress. Whether it the 
reauthorization of the Magnuson-Stevens Act, promoting the President's 
American Competitiveness Initiative, or advancing legislation to open 
markets around the world to U.S. goods and services, I will provide the 
Congress with the information it needs to craft legislation and oversee 
the Department's activities.
    Second, I will ensure that the Department's legislative staff meets 
often with yours to ensure that we understand your priorities. There is 
no substitute for face-to-face interaction in the disposition of 
complex issues.
    Third, I will work to implement three key information technology 
improvements to better our ability to communicate with Members' 
offices. Specifically, we must improve the means by which we notify 
Members' offices of grants and contracts that affect your respective 
states. We must also improve the methods we use to share the wealth of 
economic and statistical data that we produce. And finally, we need to 
continue to improve the means by which we ensure that inquiries from 
Members of Congress are responded to in a timely manner.
    I look forward to assisting Secretary Gutierrez by serving as a 
conduit to share his views and objectives with the Congress and relay 
your concerns back to the Department. In addition, I am committed to 
keeping the lines of communication open with state and local 
governments on issues of importance to them.
    If I am fortunate enough to be approved by this committee and 
confirmed by the Senate, I will ensure that the Department responds to 
your questions as quickly as possible with the best information that is 
available.
    Thank you for the opportunity to appear before you today. I will be 
happy to answer any questions that you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Nathaniel 
Frederick Wienecke, Nickname: Nat.
    2. Position to which nominated: Assistant Secretary of Commerce for 
Legislative and Intergovernmental Affairs.
    3. Date of Nomination: June 29, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office Address: Office of Legislative and Intergovernmental 
        Affairs, Room 5421, U.S. Department of Commerce, 14th & 
        Constitution Ave., NW, Washington, DC 20230.

    5. Date and Place of Birth: January 10, 1972; Rockford, Illinois; 
Winnebago County.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Chantal Suess Rainey, Homemaker and part-time 
        Consultant for Hoosier PAC.

        Child: Kendall Marie Wienecke, 4 years old.

    7. List all college and graduate degrees. Provide year and school 
attended: Bachelor of Science in Business Economics, 1994, State 
University of New York at Oneonta.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Acting Assistant Secretary for Legislative and 
        Intergovernmental Affairs, U.S. Department of Commerce, 
        Intermittently from June 2005-present.

        Deputy Assistant Secretary for Legislative and 
        Intergovernmental Affairs, U.S. Department of Commerce, March 
        2004-present.

        Deputy Assistant Secretary for External Affairs and 
        Communications, Economic Development Administration, U.S. 
        Department of Commerce, November 2002-March 2005.

        Director of Legislative Affairs, Communications, Economic 
        Development Administration, U.S. Department of Commerce, August 
        2001-November 2002.

        Professional Staff, Government Reform Committee, U.S. House of 
        Representatives, August 1999-August 2001.

        Legislative Assistant, Representative Dan Burton, U.S. House of 
        Representatives, May 1995-August 1999.

        Legislative Correspondent, Representative Michael P. Forbes, 
        U.S. House of Representatives, February 1996-May 1997.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years: None.
    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    I am or have been a member of the organizations listed below. None 
of these organizations restricts membership on the basis of sex, race, 
color, religion, national origin, age or handicap. The organizations 
include:

        St. Josephs Parish, 12/95-present, no positions;

        Capitol Hill Club 1998-1999, no positions; and

        Ducks Unlimited 2001-present, no positions.

    12. Have you ever been a candidate for public office? I have never 
been a candidate for public office.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: George W. Bush via Bush-
Cheney 2004 (primary) Inc., 8/27/2004--$2000.00.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Soepp Roesse Scholarship for International Studies, 1994.
        Scott Jenkins Scholarship for Study Abroad Programs, 1994.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have collaborated on a great number of speeches and writings for 
Members of Congress and Secretary Gutierrez during my career working 
for Congress and in the Administration.
    In the course of official events with the Department of Commerce 
and at the Economic Development Administration (EDA) at the Department 
of Commerce I participated in dozens of public events where I gave 
remarks to the public and interviews to the media. The events consisted 
of grant announcements with Members of Congress and speaking at EDA's 
national conferences. In all cases my remarks were from prepared notes 
and not written speeches. I do not have a record of specific dates and 
locations.
    I participated in the drafting of a Majority Staff Report for the 
Committee on Government Reform, U.S. House of Representatives, entitled 
Conflicts of Interest in Vaccine Policy Making, August 21, 2000.
    As President of the Student Government at Oneonta State College I 
wrote an op-ed article in the State Times on the need for insurance for 
club sports.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    I have never testified orally or in writing before Congress in a 
nongovernmental capacity.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In my official capacity at the Commerce Department over the past 5 
years I have promoted the Administrations Legislative agenda.
    Over the last 5 years in my official capacity as Deputy Assistant 
Secretary for Legislative and intergovernmental Affairs at the Commerce 
Department and Deputy Assistant Secretary for External Affairs and 
Communications at the Economic Development Administration, I have taken 
an active role in promoting the Administration's priorities before 
Congress. The issue areas that I have been responsible for include all 
legislation concerning the Bureaus of the Department of Commerce, 
notably Magnuson-Steven's Reauthorization, Central American--Dominican 
Republic Free Trade Agreement and the Economic Development 
Administration Reauthorization Act of 2004.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will consult with ethics officials at the Department of Commerce 
and if appropriate divest myself of conflicting interests, recuse 
myself, or obtain a conflict of interest waiver under 18 U.S.C. Sec. 
208(b).
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you, sir.
    And now we turn to Sean Connaughton who is nominated to be 
the Administrator of Maritime.

 STATEMENT OF SEAN T. CONNAUGHTON, NOMINEE TO BE ADMINISTRATOR 
              OF THE U.S. MARITIME ADMINISTRATION

    Mr. Connaughton. Chairman Stevens, Co-Chairman Inouye, 
Members of the Committee, it is a privilege to appear before 
you today to be considered for the position of Administrator of 
the U.S. Maritime Administration of the Department of 
Transportation. I would like to specifically thank Senator 
Allen, Senator Warner, Congressman Davis, and also Congressman 
Wolf for their comments in support of my nomination, as well.
    America is the world's largest maritime trading economy. 
The maritime industry in all its aspects on land and sea, the 
people and the hardware, the terminals and the land-side 
connectors, is squarely in the front-line of the advancement of 
the American economy and the defense of the United States. The 
efficiency, safety and security of our domestic and 
international maritime transportation system from origin to 
destination are a matter of paramount importance to the welfare 
of every citizen of this Nation.
    If confirmed by the Senate, I will, of course, continue to 
implement MARAD's statutory mandates to ensure the availability 
of efficient water transportation service to American shippers 
and consumers; an adequate shipbuilding and repair base; 
efficient ports; effective and intermodal water and land 
transportation connections; and sufficient intermodal shipping 
capacity for use by the Department of Defense in times of 
national emergency. I will also strive to ensure that the 
industry and all the persons who serve in it directly or 
indirectly are recognized, honored and appreciated for all that 
they have done and all that they will continue to do every day 
to support our economy, to protect our waterways and to 
preserve the marine environment. I have worked in this industry 
as a mariner and as a legal advisor. I have served as an 
officer in our Coast Guard and in our Navy. These experiences 
will, I hope, help me merit your trust in fulfilling the duties 
of Maritime Administrator.
    I recognize there are challenges and changes facing the 
transportation system, the U.S. maritime industry and the 
Federal Government. The Maritime Administration must focus its 
efforts on the strategic areas of commercial mobility and 
congestion relief, maritime and port development, national 
security and an environmental stewardship. The Maritime 
Administration must support the strategic objectives of the 
Department of Transportation. One of our greatest challenges is 
to increase our national transportation options in order to 
support our Nation's economic growth. Greater use of the 
maritime transportation system, through elements such as short 
sea shipping and multi-modal port development, offer the 
potential to reduce congestion while increasing efficiency in 
our ports and waterways. We expect that the U.S. military will 
increase its reliance on commercial transportation systems. 
These challenges and changes are of such importance that we 
must plan wisely now to ensure a more effective marine 
transportation system that serves our national need for 
personal mobility and for the safe and efficient movement of 
domestic and international freight.
    None of these objectives can be achieved without close 
cooperation and open communication with Congress, the national 
and international maritime industry, the shippers and receivers 
of the goods that move by water, and the skill and talents of 
the industry and MARAD's professional staff. I look forward to 
working with all of you.
    Thank you for considering my nomination, and I would be 
pleased to answer any questions you may have.
    [The prepared statement and biographical information of Mr. 
Connaughton follow:]

Prepared Statement of Sean T. Connaughton, Nominee To Be Administrator 
                  of the U.S. Maritime Administration
    Chairman Stevens, Co-Chairman Inouye, Members of the Committee, it 
is a privilege to appear before you today to be considered for the 
position of Administrator of the U.S. Maritime Administration of the 
Department of Transportation. I have with me today my family. I would 
like to introduce my wife Teresa, my daughter Courtney and my son, Sean 
Jr. I have been an elected official in local government for the past 7 
years and during that time they have endured the schedule and demands 
that you and your families are very familiar with. I appreciate their 
past and continued support of my tenure in public service.
    America is the world's largest maritime trading economy. The 
maritime industry in all its aspects on land and sea, the people and 
the hardware, the terminals and the land-side connectors, is squarely 
in the front-line of the advancement of the American economy and the 
defense of the United States. The efficiency, safety and security of 
our domestic and international marine transportation system from origin 
to destination is a matter of paramount importance to the welfare of 
every citizen of this Nation.
    If confirmed by the Senate, I will, of course, continue to 
implement MARAD's statutory mandates to ensure the availability of 
efficient water transportation service to American shippers and 
consumers; an adequate shipbuilding and repair base; efficient ports; 
effective intermodal water and land transportation connections; and 
sufficient intermodal shipping capacity for use by the Department of 
Defense in times of national emergency. I will also strive to ensure 
that the industry and all the persons who serve it directly or 
indirectly are recognized, honored and appreciated for all that they 
have done and all that they will continue to do every day to support 
our economy, to protect our waterways and to preserve the marine 
environment. I have worked in this industry as a mariner and as a legal 
advisor. I have served as an officer in our Coast Guard and in our 
Navy. These experiences will, I hope, help me to merit your trust and 
the trust of the President in fulfilling the duties of Maritime 
Administrator.
    I recognize there are challenges and changes facing our 
transportation system, the U.S. maritime industry and the Federal 
Government. The Maritime Administration must focus its efforts on the 
strategic areas of commercial mobility and congestion relief, maritime 
and port development, national security, and environmental stewardship. 
The Maritime Administration must support the strategic objectives of 
the Department of Transportation. One of our greatest challenges is to 
increase our national transportation options in order to support our 
Nation's economic growth. Greater use of the maritime transportation 
system, through elements such as short sea shipping and multi-modal 
port development, offer the potential to reduce congestion while 
increasing efficiency of our ports and waterways. We expect that the 
U.S. military will increase its reliance on commercial transportation 
systems. These challenges and changes are of such importance that we 
must plan wisely now to ensure a more effective marine transportation 
system that serves our national need for personal mobility and for the 
safe and efficient movement of domestic and international freight.
    None of these important objectives can be achieved without close 
cooperation and open communication with the Congress, the national and 
international maritime industry, the shippers and receivers of goods 
that move by water, and the skill and talents of the industry and 
MARAD's professional staff. I look forward to working with all of you.
    Thank you for considering my nomination. I would be pleased to 
answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Sean Thomas Connaughton.

    2. Position to which nominated: Administrator, U.S. Maritime 
Administration.
    3. Date of Nomination: June 27, 2006.
    4. Address (List current place of residence and office addresses): 
information not released to the public.
    5. Date and Place of Birth: February 25, 1961; Brooklyn, New York.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Teresa M. Connaughton, Registered Nurse, Inova Health 
        Systems.

        Children: Courtney M. Connaughton, age 14; Sean T. Connaughton 
        Jr., age 12.

    7. List all college and graduate degrees. Provide year and school 
attended.

        U.S. Merchant Marine Academy, B.S., 1983.

        Georgetown University, M.A., 1988.

        George Mason University, J.D., 1992.

        University of Virginia, Charlottesville, Fellow, Political 
        Science, 1995.

        Naval War College, Diploma, 1998.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Commissioned officer, U.S. Coast Guard, Office of Marine 
        Safety, Security and Environmental Protection (1983-86).

        Assistant Branch Chief (Grade GM-13), U.S. Coast Guard, Office 
        of Marine Safety, Security and Environmental Protection (1986-
        88).

        Marine Transportation Associate, American Petroleum Institute, 
        (1988-1992) Attorney, Haight Gardner Poor and Havens (1992-
        1995); Eckert Seamans Cherin & Mellot (1995-2001): Troutman 
        Sanders (2001-present).

        Commander, U.S. Naval Reserve (1986-2006).

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Board of County Supervisors, Prince William (2000-present).

        Northern Virginia Transportation Authority, Commonwealth of 
        Virginia (2000-present).

        Potomac and Rappahannock Transportation Commission (2000-
        present).

        Board of Directors, Washington Council of Governments (2004-
        present).

        Metropolitan Washington Transportation Planning Board (2000-
        2005).

        Advisory Board, United States Merchant Marine Academy (2006-
        present).

        Towing Safety Advisory Committee, U.S. Coast Guard (2005-
        present).

        Prince William Advisory Board of George Mason University (2004-
        present).

        Committee for the Performing Arts Center at George Mason 
        University (2004-present).

        Northern Virginia Base Realignment and Closure Working Group 
        (2005-2006).

        Woodbridge Campus Advisory Board, Northern Virginia Community 
        College (2006-present).

        As outlined in the Acting General Counsels opinion letter, I 
        will be resigning from all of these positions upon being sworn 
        in as Administrator.

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Chairman, 9/11 Memorial Fund (2002-2006).

        Chairman, Potomac Hospital Capital Campaign (2003-present).

        Board of Directors, Homeland Protection Institute, Ltd. (2003-
        present).

        Board of Directors, Northern Virginia Science Center at Belmont 
        Bay (2003-present).

        Board of Directors, Conservation Leaders Network (2005-
        present).

        As outlined in the Acting General Counsel's opinion letter, I 
        will be resigning from all of these positions upon being sworn 
        in as Administrator.

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Government Affairs Committee, U.S. Merchant Marine Academy 
        Alumni Association (1997-present).

        Mid-Atlantic Fundraising Chairman, U.S. Merchant Marine Academy 
        Alumni Association (1997-1998).

        Montclair Lions Club (1997-present).

        Optimist Club of Manassas (2000-present).

        Maritime Law Association (1992-present).

        Kings Point Club of Washington (1983-present).

        Naval Reserve Association (1987-present).

        Reserve Officers Association (1986-present).

        Prince William Committee of 100 (1999-present).

        Ancient Order of the Hibernians, Dowd Division, Woodbridge 
        (1999-present).

        Knights of Columbus (2006-present).

        St. Francis of Assisi Church, Triangle (1987-present).

        National Conference of Republican County Officials (2001-
        present).

        Prince William Republican Committee (1987-present).

        American Legion, Post 28 (1992-present).

        As outlined in the Acting General Counsel's opinion letter, I 
        will be resigning from the Government Affairs Committee of the 
        U.S. Merchant Marine Academy Alumni Association upon being 
        sworn in as Administrator.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt.

        1999, 2003--Chairman, Prince William Board of County 
        Supervisors--No debt.
        2005--Lt. Governor, Commonwealth of Virginia--No debt.

    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Connaughton for Chairman, $45,000, 1999.
        George Allen for Senate, $250, 2000.
        Alexandria Republican City Committee, $500, 2005.
        Fairfax County Republican Committee, $1,000, 2005.
        Cheney for Congress, $1,000, 2004.
        Republican Party of Virginia, $3,300, 2004/2005.
        Va Conservative Action PAC, $925, 2004.
        10th District Republican Congressional, $500, 2005.
        Marty Nohe for Supervisors, $1,500, 2003.
        Corey Stewart for Supervisor, $12,000, 2003.
        Tom Davis for Congress, $250, 1997.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Distinguished Service Award for County Elected Officials, 
        National Association of Counties (2004).

        Meritorious Alumni Service Award, U.S. Merchant Marine Academy 
        Alumni Association (1998).

        Franklin D. Reinauer II Defense Economics Prize, U.S. Naval War 
        College (1998).

        Defense Meritorious Service Medal, Office of the Secretary of 
        Defense (1997).

        Fellow, Virginia Institute of Political Leadership (1995).

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Numerous Opinion-Editorial pieces on transportation and other 
        issues impacting Northern Virginia localities, The Washington 
        Post, Potomac News, Prince William Times, 2000 to present.

        International Trade: Standardization and Harmonization vs. 
        States' Rights, The Metropolitan Corporate Counsel, October 
        2000.

        U.S. Legislative and Regulatory Developments, Survey of 
        Maritime Administrative Law, August 1999.

        Revolt of the Admirals: Part Deux, U.S. Naval Institute 
        Proceedings, February 1999.

        Protecting Your ISM Documents, International Journal of 
        Shipping Law, December 1998.

        Reinventing Sealift, U.S. Naval Institute Proceedings, December 
        1997.

        OPA'90--The Debate Continues, BIMCO Bulletin, April 1997.

        Seatrials Column, Journal of Commerce, (July, March, 1999; 
        December, October, October, August, July, June, May, April, 
        March, February, January 1998; November, October, September, 
        August, July, June, May, April, February, January 1997).

        Transportation Law, Lloyd's List, (December, September 1997).

        Reflagging Moratorium? An Idea Whose Time Can Wait, 
        International Ship Registry Review, August 1993.

        Vessel Pollution Prevention and Response Considerations, Oil 
        Pollution Act of 1990, December 1990.

        Fatigue and Reduced Manning, Proceedings of the Marine Safety 
        Council, August-September 1988.

        Chemical Drug Testing, Proceedings of the Marine Safety 
        Council, October-November 1987.

        Coast Guard Merchant Vessel Manning, Society of Naval 
        Architects and Marine Engineers, September 1987.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.

        401K Plan, Troutman Sanders LLP.
        401K Plan, Prince William County.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the Acting General Counsel's opinion letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    As an attorney with Troutman Sanders LLP, I have provided legal 
services to the American Waterways Operators; the International Group 
of Protection and Indemnity Clubs, the International Association of 
Independent Tanker Owners, Nordisk, Cemex USA, and Chevron Shipping. 
None of the services provided involve or involved representation before 
the Maritime Administration. Pursuant to my Ethics Agreement, I have 
agreed to not have dealings with these entities for 1 year after my 
being sworn in as Administrator.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I am currently involved in the legal representation of the American 
Waterways Operators regarding the constitutionality of a Massachusetts 
law regulating shipping. As an elected official on behalf of Prince 
William County, I have lobbied the Virginia Congressional delegation 
for support for transportation, community development and related 
projects and programs.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please refer to the Acting General Counsel's opinion letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Next is Charles Nottingham who is nominated 
to be Member of the Surface Transportation Board and upon 
confirmation you would become the Chairman, so we welcome your 
statement.

 STATEMENT OF CHARLES D. NOTTINGHAM, NOMINEE TO BE A MEMBER OF 
                THE SURFACE TRANSPORTATION BOARD

    Mr. Nottingham. Thank you Chairman Stevens and Co-Chairman 
Inouye. I am pleased to appear before this committee today as 
President Bush's nominee to the Surface Transportation Board.
    I would like to thank Senators Warner and Allen and 
Congressman Davis for their kind introductions. I have had the 
honor working with them for many years and I am grateful to 
have earned their support and trust. I would also like to thank 
former Secretary of Transportation Mineta and Acting Secretary 
Cino. I have worked closely with them and appreciate their 
support for my nomination.
    As former Secretary Mineta stated often, one of our 
Nation's priorities must be to work relentlessly to prevent the 
transportation system in our country from turning into the 
choke point that restricts economic growth. Transportation 
infrastructure will require significant and continuous 
improvement in order to handle the anticipated growth of all 
types of traffic and to keep our economy moving. I believe that 
the decisions and policies of the STB can play a vital role in 
ensuring that our country rises to this congestion and 
infrastructure challenge. This is one of the reasons that I am 
excited about the prospect, if confirmed, of serving on the 
STB.
    The STB is an independent adjudicatory body and as such its 
Members must be impartial, fair and open-minded. If confirmed, 
I will give all of the issues that come before the STB full, 
fair and impartial consideration. I would not take office with 
any preconceived ideas about the outcome of any issue. I would 
consider each matter on the merits and endeavor to make the 
right decision based on the facts and the law.
    If confirmed, I will give all matters fair, impartial, 
careful and thoughtful consideration.
    In conclusion, I would like to emphasize that, if 
confirmed, I would continue to work closely with the Congress 
and all stakeholders. I've worked for the Congress and I have 
complete respect for the letter and spirit of the laws crafted 
by this institution. All Members of Congress can be certain 
that I will be accessible and responsive to them and their 
staffs. Similarly, the STB's stakeholders can count on me to be 
accessible and open-minded.
    I am honored to be under consideration for this important 
job and by the prospect of continuing to serve our great Nation 
and all of its citizens who depend on our transportation 
network.
    Thank you for your consideration. I look forward to 
answering any questions you might have.
    [The prepared statement and biographical information of Mr. 
Nottingham follow:]

Prepared Statement of Charles D. Nottingham, Nominee To Be a Member of 
                    the Surface Transportation Board
    Thank you Chairman Stevens and Co-Chairman Inouye. I am pleased to 
appear before this committee today as President Bush's nominee to the 
Surface Transportation Board (STB). I appreciate the Committee's 
willingness to schedule this hearing during a very busy time in the 
legislative season.
    I would like to thank Senators Warner and Allen and Congressman 
Davis for their kind introductions. I have had the honor of working 
with them for many years and am grateful to have earned their support 
and trust. I would also like to thank former Secretary of 
Transportation Mineta and Acting Secretary Cino. I have worked closely 
with them and appreciate their support for my nomination. My wife, 
Catherine, and sons Garner and Charles, are with me today and seated in 
the audience.
    I appear before this committee today as President Bush's nominee to 
the STB. The President has indicated that, if I am confirmed, he would 
designate me as Chairman of the STB. The STB is an independent agency 
with significant adjudicative, regulatory and policymaking 
responsibilities. If confirmed, I will carry out these responsibilities 
in an impartial, fair, and effective manner.
    I have dedicated my career to public service. My first job in 
Washington, D.C., was serving as an intern in Senator Lautenberg's 
office in the Summer of 1985. I recently had an opportunity to 
personally thank Senator Lautenberg for providing me with my first 
professional exposure to public service and for instilling in me an 
enduring and deep respect for Congress. My first job out of college was 
in the Justice Department's Environment and Natural Resources Division 
where I served in the civil service as a paralegal in 1988 and 1989.
    After graduating from law school and being admitted to the Virginia 
Bar Association, I worked for Congressman Tom Davis as his Counsel and, 
eventually, as his Chief of Staff. I subsequently served as Chief of 
Staff to Congressman Bob Goodlatte. From 1998 to 2002, I served the 
Commonwealth of Virginia as the Assistant Secretary of Transportation 
and then as Commonwealth Transportation Commissioner--the Chief 
Executive Officer in charge of the Virginia Department of 
Transportation (VDOT). VDOT is the third largest state department of 
transportation in the Nation and employed approximately 10,500 people 
with an annual budget of $3.2 billion. As the Commissioner of VDOT from 
1999-2002, I learned invaluable lessons on how to manage a large, 
complex organization. I also gained first-hand experience in tackling 
the transportation challenges that confront ports, shippers, railroads, 
farmers and commuters alike.
    Since 2002, I have served in the Federal Senior Executive Service 
as the Associate Administrator for Policy and Governmental Affairs at 
the Federal Highway Administration (FHWA). I worked closely with 
Congress in crafting the surface transportation reauthorization bill, 
SAFETEA-LU, which was enacted in August 2005. I have also worked 
closely with state, local and private stakeholders on advancing 
policies to address our Nation's growing transportation congestion 
problem and infrastructure capacity needs.
    As former Secretary Mineta stated often, one of our Nation's 
priorities must be to work relentlessly to prevent the transportation 
system in our country from turning into the choke point that restricts 
economic growth. Freight traffic of all kinds in the U.S.--whether on 
the rails, roads, seaways, or by air--is forecast to double in volume 
over the next 20 years. Our existing transportation infrastructure will 
require significant and continuous improvement in order to handle the 
anticipated growth of all types of traffic and to keep our economy 
moving. I believe that the decisions and policies of the STB can play a 
vital role in ensuring that our country rises to this congestion and 
infrastructure challenge. This is one of the reasons that I am excited 
about the prospect, if confirmed, of serving on the STB.
    The STB is an independent, adjudicatory body and, as such, its 
Members must be impartial, fair and open-minded. If confirmed, I will 
give all of the issues that come before the STB full, fair and 
impartial consideration. I would not take office with any preconceived 
ideas about the outcome of any issue. I would consider each matter on 
the merits and endeavor to make the right decision based on the facts 
and the law. If confirmed, I will give all matters fair, impartial, 
careful and thoughtful consideration.
    In conclusion, I would like to emphasize that, if confirmed, I 
would continue to work closely with the Congress and all stakeholders. 
I have worked for the Congress and have complete respect for the letter 
and spirit of the laws crafted by this institution. All Members of 
Congress can be certain that I will be accessible and responsive to 
them and their staffs. Similarly, the STB's stakeholders can count on 
me to be accessible and open-minded.
    I am honored to be under consideration for this important job and 
by the prospect of continuing to serve our great Nation and all of its 
citizens who depend on our transportation network. Thank you for your 
consideration and I look forward to answering any questions you might 
have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Charles 
Denmead Nottingham; ``Chip''.
    2. Position to which nominated: Member, Surface Transportation 
Board.
    3. Date of Nomination: June 5, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: U.S. Department of Transportation, Federal Highway 
        Administration, Office of Policy and Governmental Affairs, Room 
        3317, 400 Seventh Street, SW, Washington, DC 20590.

    5. Date and Place of Birth: September 23, 1965; Washington, D.C.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Catherine Casey Nottingham (not currently employed; 
        full-time parent).

        Children: Garner Lewis Nottingham, age 9; Charles Southard 
        Nottingham, age 6.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Arts, Wesleyan University (Middletown, CT), 1989.
        Juris Doctor, George Mason University School of Law, 1994.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Associate Administrator for Policy and Governmental Affairs, 
        Federal Highway Administration (2002-present).

        Counsel, Committee on Government Reform, U.S. House of 
        Representatives (2002).

        Commonwealth Transportation Commissioner and Vice Chairman of 
        the Commonwealth Transportation Board (Richmond, VA, 1999-
        2002).

        Assistant Secretary of Transportation, Commonwealth of Virginia 
        (1998-1999).

        Chief of Staff, Congressman Bob Goodlatte (VA-6, 1997-1998).

        Chief of Staff, Congressman Tom Davis (VA-11, 1996-1997).

        Counsel, Congressman Tom Davis (VA-11, 1995-1996).

        Legislative and Policy Consultant, American International 
        Group, Inc. (Washington, D.C.), 1990-1991.

        Legal and Legislative Assistant, Powell Goldstein Frazer and 
        Murphy (Washington, D.C.), 1989-1990.

        Paralegal, U.S. Department of Justice, Environment and Natural 
        Resources Division (Washington, D.C.), 1988-1989.

        Intern, Office of Senator Frank Lautenberg (Washington, D.C.), 
        May-August, 1985.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.
    Uncompensated Trustee for the following two trusts created by my 
parents for the benefit of my two children: (1) Irrevocable Trust for 
Garner Lewis Nottingham (June 1998 to the present); (2) Irrevocable 
Trust for Charles Southard Nottingham (November 2000 to the present).
    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    Memberships:

        The University Club of Washington, D.C. (1990-present).

        Virginia Bar Association (2004-present).

        Fredericksburg (VA) Country Club (1998-present).

        Bay Head (NJ) Yacht Club (2004-present).

        Federalist Society for Law and Public Policy (1989-present).

        The Fredericksburg German (hosts of an annual dance) (2004-
        present).

        National Rifle Association (2004-present).

        Ducks Unlimited (1999-present).

        Republican National Committee (2000-present).

        Darby Town Civic Association (neighborhood civic association in 
        Fredericksburg, VA, 1996-2000).

        St. George's Episcopal Church, Fredericksburg, VA (member, 
        1996-present; Head Usher, 2004-present).

        Friends of the Rappahannock (Fredericksburg area group 
        dedicated to protecting the local river; 1997-2001).

        Fredericksburg City Republican Committee (active member, 1997-
        2001; inactive, 2002-present).

        Alexandria, VA City Republican Committee (1995-1997).

        Capitol Hill Club, Washington, D.C. (2002-present).

        Friends of the National Arboretum (2005, co-chair of annual 
        clambake dinner fundraiser).

        Central Virginia Battlefields Trust (historic land preservation 
        group, 1999-present).

        George Washington's Ferry Farm Foundation (not-for-profit group 
        dedicated to preserving Washington family properties in the 
        Fredericksburg area; 1999-present)..

        12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        2006: Federal--(1) Republican National Committee, $250; (2) 
        Friends of George Allen $500.
        State/local--none.

    [note: all references to state/local contributions refer to 
political campaigns and organizations in the Commonwealth of Virginia.]

        2005: Federal--(1) Friends of George Allen, $1,000; (2) 
        Republican National Committee, $2,000; (3) Tom Davis for 
        Congress, $500.
        State/local--(1) David B. Albo for Delegate, $500; (2) Jeff 
        Frederick for Delegate, $500; (3) Kilgore for Governor, $6,250.

        2004: Federal--(1) Bill Manger for Congress, $500; (2) Friends 
        of Frank Wolf, $1,000; (3) Thelma Drake for Congress, $1,000; 
        (4) Bush-Cheney 2004, $2,000; (5) Bush-Cheney 2004 Compliance 
        Committee, $1,000; (6) Republican National Committee, $1,000; 
        (7) Tom Davis for Congress, $1,000; (8) Federal Victory Fund, 
        $1,000.
        State/local--(1) Dominion leadership Trust PAC, $500.

        2003: Federal--(1) Republican National Committee, $2,000; (2) 
        Jo Ann Davis for Congress, $500.
        State/local--(1) Thomas M. Bolvin for Delegate, $500; (2) 
        Mychele B. Brickner for Chair, Fairfax County Board of 
        Supervisors, $500; (3) Dominion Leadership Trust PAC, $500; (4) 
        Christian Hoff for Delegate, $500; (5) Robert Stuber for 
        Senate, $500; (6) Virginians for Jerry Kilgore, $500.

        2002: Federal--(1) Tom Young for Congress, $1,000; (2) National 
        Republican Congressional Campaign Committee, $1,000; (3) 
        Republican National Committee, $1,750; (4) Over the Hill PAC, 
        $1,000.
        State/local--(1) George Allen's Over the Hill Gang PAC, $1,000.

        2001: Federal--(1) Senator John Warner Committee, $2,000.
        State/local--(1) Earley for Governor, $1,000; (2) William J. 
        Howell for Delegate, $1,000; (3) Kilgore for Attorney General, 
        $500.

        2000: Federal--(1) Friends of George Allen, $1,000; (2) Tom 
        Davis for Congress, $1,000; (3) Republican National Committee, 
        $1,000.
        State/local: none.

        1999: Federal--(1) Tom Davis for Congress, $500.
        State/local--(1) New Majority Project PAC, $500; (2) Mel 
        Sheridan for Senate, $500; (3) Jane H. Woods for Senate, $500.

        1998: None.

        1997: Federal--(1) Tom Davis for Congress, $500.
        State/local--(1) Gilmore for Governor, $525.

        1996: None.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.
    U.S. Secretary of Transportation ``Secretary's Team Award,'' 
November 10, 2005; in recognition of contribution to enactment of H.R. 
3--Surface Transportation Reauthorization Act of 2005.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Numerous informal, unpublished remarks to local, state, and 
interest group delegations interested in transportation policy. No 
published writings.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    While working for the Commonwealth of Virginia between 1998 and 
2002, I participated in a state employee defined contribution plan 
managed by Great West Life and Annuity Insurance Company and invested 
in the State Street Global Advisors Standard and Poor's 500 index fund. 
I accumulated approximately $35,000 in this account while working for 
the Commonwealth. When I resigned my position with the Commonwealth, I 
decided to maintain this account. No additional contributions have been 
made to the account since my departure from state government. The 
account's value adjusts in accordance with the S&P 500. The account 
currently contains approximately $45,000 in stock assets.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I anticipate no conflicts of interest if I am confirmed to be a 
Member of the STB. I have consulted with STB ethics counsel and 
confirmed that my stock ownership in AIG, Inc., an insurance and 
financial services company, is not likely to present any real or 
apparent conflict of interest because AIG is not involved in matters 
that come before the STB. In the unlikely event that AIG were to have 
financial interest in a matter before the STB, I would take appropriate 
action, based on the advice of STB ethics counsel, to avoid any real or 
apparent conflict of interest, including disqualifying myself from 
participating in the matter or seeking a waiver of the disqualification 
requirement.
    My wife is a partner in two real-estate development partnerships 
owned by 10 members of her family (CC Casey Sons and CC Casey, LLC). 
The partnerships are dedicated to managing and developing partnership 
real estate in Williamsburg, VA. I am not involved in these 
partnerships, other than being married to my wife. In the unlikely 
event that either of the partnerships were to have financial interest 
in a matter before the STB, I would take appropriate action, based on 
the advice of STB ethics counsel, to avoid any real or apparent 
conflict of interest, including disqualifying myself from participating 
in the matter or seeking a waiver of the disqualification requirement.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In 2001 and early 2002 I served as Commonwealth Transportation 
Commissioner for Virginia. In this capacity, I administered and 
executed state and Federal transportation and environmental laws and 
policies that were delegated to the Virginia Department of 
Transportation.
    Between June 2002 and the present, I have served the U.S. 
Department of Transportation as Associate Administrator for Policy and 
Governmental Affairs at the Federal Highway Administration. In this 
capacity, I helped draft the Administration's proposed reauthorization 
of the surface transportation programs. I represented the views of the 
Administration on surface transportation issues in numerous meetings 
with Members and staff in the Congress. I have also provided extensive 
legislative and policy technical assistance related to surface 
transportation (mostly highway) issues to numerous Congressional 
offices and staff. I work on a regular basis to ensure that FHWA is 
properly implementing and executing laws and policies.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I anticipate no potential conflicts of interest, based on 
consultation with STB ethics counsel. Also, both STB ethics counsel and 
the U.S. Office of Government Ethics have certified that my Public 
Financial Disclosure Report is in compliance with applicable laws and 
regulations governing conflicts of interest. Nevertheless, if a real or 
apparent conflict of interest were to arise or come to my attention, I 
would immediately consult with STB ethics counsel for advice on what 
action might be taken to avoid the conflict and then act on that 
advice. Actions available to me would include disqualifying myself from 
participating in the action involving the conflict, seeking a waiver of 
the disqualification requirement, if appropriate, or divesting the 
asset that gave rise to the conflict.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    Yes. In September, 1999 I received a citation from a Virginia 
Department of Game and Inland Fisheries officer while hunting dove 
(migratory bird) in Caroline County, Virginia on a private farm owned 
by a friend. The citation charged me with hunting without a shotgun 
``plug''--a device installed in the chamber of a shotgun to restrict 
the number of shells that can be loaded into the gun. Under Virginia 
law, migratory bird hunters must restrict their shotguns' ability to 
hold more than three shells. I had recently purchased a new shotgun and 
was told by the seller that it was properly equipped with a ``plug.'' 
At the time of the citation, I was participating in a lawful hunt, 
carried the required license, and was well-within the 12-bird limit for 
dove in Virginia. I appeared in Caroline County General District Court 
in October 1999, explained the facts and circumstances to District 
Judge Trible and denied knowingly or intentionally violating any law or 
regulation. The judge dismissed the charge without prejudice and 
without condition. I was represented in court by an eye witness and 
hunting companion on the day of the citation, Mr. Gordon Willis. He 
currently works as a judge in the Fredericksburg Circuit Court in 
Fredericksburg, VA.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I would like the Committee to know that I have dedicated my life to 
public service ever since graduating from law school in 1994. For the 
past 8 years I have dedicated myself to improving our Nation's 
transportation infrastructure and to making the transportation sector 
more accountable to taxpayers.
    I was the youngest Chief Executive Officer in the 100-year history 
of the Virginia Department of Transportation (VDOT) when appointed in 
1999 at the age of 33. In that capacity, I managed a staff of 10,500 
employees and an annual budget of $3.2 billion. VDOT operates the third 
largest highway system in the United States with more miles than the 
Nation's entire Interstate system. I led a major organizational reform 
effort that focused on accountability, environmental stewardship, 
customer service, and transparency.
    As Assistant Secretary of Transportation for Virginia (1998-1999) I 
worked extensively on railroad, port and shipping issues of concern to 
the Port of Hampton Roads, the two Class I freight railroads who were 
then headquartered in Virginia, short-line railroads and the entire 
shipping community in Virginia. From 1999-2002, I also served as Vice 
Chair of the Virginia Commonwealth Transportation Board, a position 
that gave me exposure to issues relating to all modes of 
transportation. In this capacity, I worked extensively with local 
governments and shippers interested in the administration of the 
Virginia Industrial Rail Access Grant Program.
    Prior to my state government experience, I served as Chief of Staff 
to Congressman Bob Goodlatte (VA-6) and Congressman Tom Davis (VA-11). 
My work for Congressman Goodlatte gave me extensive exposure to 
agricultural issues as his district is one of the most productive 
agricultural districts in the country. In this capacity, I spent 
extensive time in the Shenandoah Valley working with agricultural 
producers and short line and Class I freight railroads in an effort to 
improve access to markets for producers. My work for Congressman Tom 
Davis gave me extensive exposure to Federal civil service, government 
management and Federal procurement policy--experience that has served 
me well as a Senior Executive Service member and that would, if 
confirmed, be useful in my work as a Member of the STB.
    From 2002 to the present I have managed four offices, four Senior 
Executive Service managers and more than 80 employees at the Federal 
Highway Administration. In this capacity I have gained extensive 
knowledge of freight transportation issues, the importance of 
leveraging every mode of transport to meet freight growth trends and 
the overall importance of an accessible, safe and reliable freight 
transportation network. My work at FHWA also includes oversight and 
direction of Congressional relations activities. I have had the 
privilege of providing assistance to numerous Senate offices and have a 
deep respect for and understanding of the importance of providing 
prompt, objective, and professional response to Congress and all 
customers. Finally, throughout my career, beginning in my first full-
time job working at the Justice Department, and including my focus on 
environmental law in graduate school, and in my subsequent career, I 
have developed significant experience in environmental law and policy--
especially National Environmental Policy Act and Clean Air Act issues. 
If confirmed, I am confident that this experience would be put to good 
use at the STB.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much. Mr. Sumwalt is next and 
Mr. Sumwalt has been nominated to be a Member of the National 
Transportation Safety Board.

 STATEMENT OF ROBERT L. SUMWALT III, NOMINEE TO BE A MEMBER OF 
            THE NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Sumwalt. Thank you, Mr. Chairman, Mr. Co-Chairman and 
distinguished members of the Committee. I am honored to appear 
before you today as you consider confirmation of my nomination 
as a Member of the National Transportation Safety Board.
    I am grateful to President Bush for the confidence he has 
placed in me through this nomination, and if confirmed, I 
intend to work diligently to contribute to the Safety Board's 
mission of preventing transportation accidents and maintaining 
the trust and confidence of the traveling public.
    I would like to thank Senator Jim DeMint from my home State 
of South Carolina for his kind introduction and support and 
Senator Allen, thank you sir for your comments.
    Additionally, I would like to thank NTSB Board Members, 
both past and present for being here today to show their 
support for this nomination.
    Mr. Chairman, our nation's transportation system is the 
lifeblood of our economy and our national well-being. It is 
therefore, vital that this Nation keep this complex system 
safe, healthy and dependable. And although our transportation 
generally performs very well, when transportation accidents do 
occur, it is imperative that we be able to reassure the 
American public that the government is conducting full, timely, 
honest, confident and unbiased investigations. The Board must 
act with a dispassionate eye, objectively formulating and 
making safety recommendations to government and industry that 
will prevent reoccurrence and then following up on those 
recommendations as necessary. And since 1967, the NTSB has 
fulfilled this role.
    The mission of the NTSB is very admirable. It is one that 
is dedicated to improving safety on our Nation's waterways, 
railways, highways and airways, as well as ensuring safety of 
pipelines and transportation of hazardous materials. And 
through the tireless efforts of dedicated NTSB employees, many 
potential accidents have been prevented, lives saved and 
countless injuries were reduced. In addition, the Safety Board 
has an important role of assisting the families of aviation 
accidents.
    Clearly, the American public and the transportation 
community depend on the NTSB to fulfill its mission, not only 
in the wake of an accident, but by also being proactive through 
the Safety Board's advocacy role, by conducting safety studies 
and making safety recommendations. If confirmed, I will 
undertake to support the Safety Board in all of its endeavors.
    Mr. Chairman, Senator DeMint outlined my qualifications, so 
I won't go through that, but one thing that I would like to add 
is that I have accident investigation experience working 
through the auspices NTSB's party system. I have investigated 
two air carrier accidents with the NTSB. Additionally, I have 
worked with the Transportation Safety Board of Canada as an 
observer in their investigation of the 1998 Swissair Flight 111 
accident off the coast of Peggy's Cove in Nova Scotia. Through 
these personal and professional experiences, I have developed 
an abiding respect for the work of the Board and its 
professional staff.
    Although I have a strong aviation safety background, I want 
to ensure you that if confirmed, I will not just limit my 
interest and attention to aviation safety. I feel strongly that 
the traveling public is entitled to and deserves safe 
transportation regardless of the transportation mode that they 
choose.
    I will also diligently work to ensure that the Safety Board 
maintains its well-earned status as the world's preeminent 
transportation safety and accident investigation agency.
    Mr. Chairman, if confirmed, I look forward to the 
opportunity to work in a professional and collegial fashion 
with Acting Chairman Rosenker, with my fellow Board Members, 
with the dedicated NTSB staff and with this committee as we 
work together to enhance transportation safety.
    Thank you for your time and I look forward to answering 
your questions.
    [The prepared statement and biographical information of Mr. 
Sumwalt follow:]

Prepared Statement of Robert L. Sumwalt III, Nominee To Be a Member of 
                the National Transportation Safety Board
    Thank you, Mr. Chairman, Mr. Co-Chairman, distinguished members of 
the Committee. I am honored to appear before you today as you consider 
confirmation of my nomination as a Member of the National 
Transportation Safety Board.
    I am grateful to President Bush for the confidence he has placed in 
me through this nomination. If confirmed, I intend to work diligently 
to contribute to the Safety Board's mission of preventing 
transportation accidents and maintaining the trust and confidence of 
the traveling public.
    I would also like to thank Senator Jim DeMint from my home State of 
South Carolina for his kind introduction and support.
    With your permission I would like to introduce my wife, Anne, and 
our daughter Mackenzie, age 12.
    Mr. Chairman, our Nation's transportation system is the lifeblood 
of our economy and national well-being. Therefore, it is vital that 
this Nation keep this complex system safe, healthy and dependable.
    Although our transportation system generally performs very well, 
when transportation accidents do occur, it is imperative that we be 
able to reassure the American public that the government is conducting 
thorough, timely, honest, competent and unbiased investigations. The 
Board must act with an objective, dispassionate eye, formulating and 
making the recommendations to government and industry that will prevent 
recurrence and following up on the recommendations, as necessary.
    Since 1967, the NTSB has fulfilled this role.
    The mission of the NTSB is very admirable--one that is dedicated to 
improving safety on our Nation's waterways, railways, highways and 
airways, as well as ensuring safety of pipelines and transportation of 
hazardous materials. Through the tireless efforts of dedicated NTSB 
employees, many potential accidents have been prevented, lives saved 
and countless injuries reduced. In addition, the Safety Board has an 
important role of assisting the families of victims of aviation 
accidents.
    Clearly, the American public and the transportation community 
depend on the NTSB to fulfill its mission, not only in the wake of an 
accident, but also to be proactive through the Safety Board's advocacy 
role, by conducting safety studies and by making safety 
recommendations. If confirmed, I will undertake to support the Safety 
Board in all its endeavors.
    Mr. Chairman, my background includes a combination of experience in 
aviation management, accident and incident investigation, teaching 
human factors and its relationship to transportation safety, and 
actively working to create aviation safety programs. I am an active 
pilot and have been flying for over 32 years including 24 years as a 
pilot for a major U.S.-based international air carrier. I currently 
manage the corporate flight department for a Fortune 500 company.
    Working through the auspices of the NTSB's party system, I have 
worked with the Safety Board on two major air carrier accident 
investigations. I also participated as an observer with Transportation 
Safety Board of Canada in their investigation of the 1998 Swissair 
Flight 111 accident off the coast of Peggy's Cove, Nova Scotia. Through 
these personal and professional experiences, I have developed an 
abiding respect for the work of the Board and its professional staff.
    Although I have a strong aviation safety background, I want to 
assure you that if confirmed, I will not limit my interests and 
attention to aviation. I believe the traveling public is entitled to 
and deserves safe transportation, regardless of the transportation mode 
they chose.
    I will also work diligently to ensure that the NTSB maintains its 
well-earned status as the world's preeminent transportation safety and 
accident investigation agency.
    Mr. Chairman, if confirmed, I look forward to the opportunity to 
work in a professional and collegial fashion with Acting Chairman 
Rosenker, my fellow Board Members, the dedicated NTSB staff and this 
committee to enhance transportation safety.
    Thank you for your time and I look forward to answering your 
questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Robert 
Llewellyn Sumwalt III.
    2. Position to which nominated: Member, National Transportation 
Safety Board.
    3. Date of Nomination: June 6, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: SCANA Corporation, Aviation Department, 2695 Aviation 
        Way, West Columbia, SC 29170.

    5. Date and Place of Birth: June 30, 1956; Columbia, SC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Anne Macdonald Sumwalt, Jewelry Designer, Self-employed, 
        working from home, DBA Whimsy.

        Kaylyn Mackenzie Sumwalt, Age 11.

    7. List all college and graduate degrees. Provide year and school 
attended: Bachelor of Science, University of South Carolina, 1979.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        SCANA Corporation, Manager of Aviation, November 2004-present 
        (Managing corporate flight department for a Fortune 500 
        company).

        US Airways, Airline Pilot, February 1981-November 2004 
        (Assigned to Corporate Safety Department on temporary 
        assignment, 1997-2004)

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Air Line Pilots Association, International, Volunteer/advisory 
        role; Chairman, Human Factors and Training Group; Member, 
        Accident Investigation Board; Air Safety Representative, 1987-
        2004.

        University of Southern California Aviation Safety and Security 
        Program, Human Factors Instructor, 2003-present.

    I have consulted on Aviation Safety matters for the following 
organizations:

        Pfizer Aviation Department (January 2006), 1001 Jack Stephan 
        Way, West Trenton, NJ 08628.

        REACH Air Medical Services (November 2005), 451 Aviation Blvd., 
        Suite 201, Santa Rosa, CA 95403.

        Merck Aviation Department (December 2002-January 2004), 100 Sam 
        Weinroth Road, West Trenton, NJ 08625.

        ConocoPhillips (July 2003-October 2003), Global Aviation 
        Services, George Bush International Airport, 16901 JFK Blvd., 
        Houston, TX 77205.

        ConocoPhillips Alaska (April 2004-May 2005), Aviation 
        Department, 6601 South Airpark Place, Anchorage, AK 99502.

        Robbins, Kaplan, Miller & Ciresi, LLP (November 2002-December 
        2002), 2800 LaSalle Plaza, 800 LaSalle Avenue, Minneapolis, MN 
        55402-2015.

        Andrews and Kurth, LLP (September 2001-May 2004), 600 Travis 
        Street, Suite 4200, Houston, TX 77002-3090.

        Dodd and Associates (June 2002-August 2003), 2008 Grandview 
        Avenue, Gambrills, MD 21054-1730.

        TAME Airlines (June 2002), Avs.Amazonas 1354 Quito, Ecuador.

        The Klinect Group (June 2002-February 2003), LOSA 
        Collaborative, P.O. Box 684645, Austin, TX 78768.

        Air Methods (April 2004), Englewood, CO.

        Instituto Technologico de Aeronautica (October 2004), Sao Jose 
        dos Compos, Sao Paolo, Brazil.

        DuPont Corporate Aviation Department (July 2003), Wilmington, 
        DE.

        Bookspan (2001), Mechanicsburg, PA.

    I have written articles and received compensation for writing these 
articles from the following organizations:

        Queensmith Communications (May 1985-present), Professional 
        Pilot Magazine, 30 S. Quaker Lane, Suite 300, Alexandria, VA 
        22314.

        Flight Safety Foundation (June 1994-August 2003), 601 Madison 
        Street, Suite 300, Alexandria, VA 22314.

    Members of Committees

        National Business Aviation Association (NBAA). Since January 
        2005 I have served on NBAA Safety Committee.

        Flight Safety Foundation (FSF). Since 1993 I have been a member 
        of FSF ICARUS Committee.

        Air Line Pilots Association, Member, March 1982-January 2005; 
        Chairman, Human Factors and Training Group (1998-2004); Member, 
        Accident Investigation Board (2002-2004).

        Eastminster Presbyterian Church, USA, Member of Deaconate, 
        2001-2004.

        Federal Aviation Administration Aviation Safety Counselor, 
        2000-present.

        Southeastern Aviation Safety Roundtable, Member, 2005-present.

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.
    My response to Question 9 lists all organizations that I have 
consulted for, or those that I have been a representative of during the 
past 5 years. Of those, there is only one that I was officially 
considered to be an officer and that organization is Eastminster 
Presbyterian Church, USA, (Columbia, SC); my officer role was Deacon. 
(2001-2004).
    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Note: None of these organizations restrict membership on the 
        basis of sex, race, color, religion, national origin, age or 
        handicap.

        Air Line Pilots Association, Member, March 1982-January 2005; 
        Chairman, Human Factors and Training Group (1998-2004); Member, 
        Accident Investigation Board (2002-2004).

        Aircraft Owners and Pilots Association, Member, October 2005-
        Present.

        Flight Safety Foundation Icarus Committee, Member, July 1993-
        Present.

        University of South Carolina Alumni Association, Member, 
        Approximately 1980-present.

        Forest Lake Club (Country Club), Member, 1981-present.

        Columbia Ball (Debutante Ball), Member, Approximately 1995-
        present.

        Cotillion Ball (Debutante Ball), Member, Approximately 2003-
        present.

        International Society of Air Safety Investigators, Affiliate 
        Member, Approximately 1995-present.

        National Business Aviation Association, Member, 2002-2004; 
        Member, NBAA Safety Committee, 2005-present.

        Eastminster Presbyterian Church, Member, 1995-present; Deacon, 
        2001-2004.

        Federal Aviation Administration, Aviation Safety Counselor, 
        2000-present.

        Southeastern Aviation Safety Roundtable, Member, 2005-present.

        National Speakers Association, Member, 2003-2004.

        Soaring Society of America, Member, 1998-2002.

    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: Henry McMaster for S.C. 
Attorney General--$500--November 2005.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Flight Safety Foundation Laura Taber Barbour Air Safety Award. 
        2003. This annual award was established in 1956. The award 
        recognizes notable achievement in the field of aviation 
        safety--civil or military--in method, design, invention, study 
        or other improvements. The award's recipient is selected for a 
        ``significant or group effort contributing to improving 
        aviation safety, with emphasis on original contributions,'' and 
        a ``significant individual or group effort performed above and 
        beyond normal responsibilities.''

        ALPA Air Safety Award. 2004. This award is the highest honor 
        for an air safety representative of the Air Line Pilots 
        Association. It is bestowed each year on a pilot who has made 
        significant contributions to safety through volunteer service 
        in the Association's air safety structure.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Sumwalt, R.L., and Boyer, R.D., ``Applying Operational Risk 
        Management in Corporate Flight Operations.'' In Proceedings 
        from the 51st annual Flight Safety Foundation/National Business 
        Aviation Association Corporate Aviation Safety Seminar (CASS), 
        May 9-11, 2006. Phoenix, AZ.

        Sumwalt, R.L., ``Accident Analysis: Failure to Monitor Airspeed 
        Leads to Loss of Control.'' Professional Pilot Magazine. 
        November 2005.

        Acceptance Speech for Receipt of ALPA Annual Air Safety Award. 
        Air Line Pilots Association Air Safety Forum, August 18, 2005.

        Sumwalt. R.L., ``Enhancing Flight-crew Monitoring Skills Can 
        Increase Corporate Aviation Safety.'' In Proceedings from the 
        49th annual Flight Safety Foundation/National Business Aviation 
        Association Corporate Aviation Safety Seminar (CASS), April 27-
        29, 2004. Tucson, Arizona.

        Walters, J.M. and Sumwalt, R.L., ``Accident Analysis: Aspen 
        CFIT Accident.'' Professional Pilot Magazine. October 2003.

        Sumwalt, R.L., ``Airplane Upset Recovery Training: A Line 
        Pilot's Perspective.'' Flight Safety Digest. July-August 2003.

        Sumwalt, R.L., Thomas, R.J., Dismukes, R.K. ``The Last Line of 
        Defense Against Aviation Accidents.'' Viewpoint Editorial in 
        Aviation Week and Space Technology. August 25, 2003.

        Sumwalt, R.L., ``Cockpit Monitoring.'' Professional Pilot 
        Magazine. August 2003.

        Sumwalt, R.L., O'Neill, J. ``Runway Changes: Managing the 
        Threat.'' Safety On Line. Spring 2003.

        Sumwalt, R.L., Thomas, R.J., Romeo, C., ``Newly implemented 
        Line Operations Safety Audit produces valuable data for air 
        carrier.'' ICAO Journal. Number 1, 2003. Volume 58.

        Sumwalt, R.L. and Walters J.M., ``Accident Analysis: Missing 
        the Runway Completely.'' Professional Pilot Magazine. January 
        2003.

        Sumwalt, R.L., ``Setting the FCU Improperly Can Lead to an 
        Unauthorized Open Descent.'' Safety On Line. Winter 2003.

        Sumwalt, R.L., Thomas, R.J., Dismukes, R.K. ``Enhancing Flight-
        crew Monitoring Skills Can Increase Flight Safety.'' In 
        Proceedings from the Joint Meeting of the 55th annual FSF 
        International Air Safety Seminar (IASS), 32nd IFA International 
        Conference. November 4-7, 2002. Dublin, Ireland.

        Sumwalt, R.L., ``Aircraft Accident and Incident 
        Investigation.'' In The Standard Handbook for Aeronautical and 
        Astronautical Engineers. McGraw Hill. 2002

        Sumwalt, R.L., ``How to Set Up a LOSA--US Airways Experience.'' 
        Chapter 4 in ICAO Line Operations Safety Audit (LOSA) Manual. 
        ICAO Document 9803 AN/761. First Edition--2002.

        Sumwalt, R.L. and Walters, J.M., ``Accident Analysis: Lear 35A 
        vanishes from radar near LEB.'' Professional Pilot Magazine. 
        June 2002.

        Sumwalt, R.L. and Thomas, R.J., ``Findings from the US Airways 
        Line Operations Safety Audit (LOSA).'' Safety On Line. Spring 
        2002.

        Sumwalt, R.L. and Walters, J.M., ``Accident Analysis: Falcon 
        900 overrun. Hyannis, MA. March 17, 2000.'' Professional Pilot 
        Magazine. April 2002.

        Sumwalt. R.L., ``Error management gives pilots weapons against 
        taxiway and runway problems.'' Professional Pilot Magazine. 
        January 2002.

        Sumwalt, R.L. and Walters, J.M., ``Accident Analysis: 
        Destabilized flare and hard landing lead to disaster.'' 
        Professional Pilot Magazine. November 2001.

        Sumwalt, R.L. and Walters, J.M., ``Accident Analysis: Niner 
        Mike is in trouble.'' Professional Pilot Magazine. September 
        2001.

        Sumwalt, R.L. and Walters, J.M., ``Accident Analysis: Failure 
        to monitor level-off at MDA leads to CFIT accident.'' 
        Professional Pilot Magazine. April 2001.

        Sumwalt, R.L. and Walters, J.M., ``Accident Analysis: Nothing 
        good comes from an unstabilized approach.'' Professional Pilot 
        Magazine. March 2001.

        Walters, J.M. and Sumwalt, R.L., ``Accident Analysis: 
        Revisiting the steps that can lead to disaster,'' Professional 
        Pilot Magazine. December 2000.

        Walters, J.M. and Sumwalt, R.L., ``Accident Analysis: On HOU to 
        IAH, First Approach was Bad, Second was Fatal.'' Professional 
        Pilot Magazine. March 2000.

        Walters, James M. and Sumwalt, Robert L., Aircraft Accident 
        Analysis: Final Reports. McGraw Hill. 2000. (ISBN 0-07-135149-
        3)

        Sumwalt, R.L., Thomas, R.J., ``Enhancing Safety Through Error 
        Management.'' In Proceedings from the Joint Meeting of the 52nd 
        annual FSF International Air Safety Seminar (IASS), 29th IFA 
        International Conference. November 8-11, 1999. Rio de Janeiro, 
        Brazil.

        Sumwalt, R.L., ``Enhancing Flight-crew Monitoring Skills Can 
        Increase Flight Safety.'' Flight Safety Digest. March 1999.

        Sumwalt, R.L., ``Enhancing Safety Though Error Management.'' US 
        Airways Safety On Line. March 1999.

        Sumwalt, R.L., ``The Wrong Stuff: Troubled Cockpit 
        Interpersonal Relations Can Affect Safety.'' Professional Pilot 
        Magazine. February 1999.

        Dismukes, K., Young, G., and Sumwalt, R.L., ``Cockpit 
        Interruptions and Distractions.'' ASRS Directline. December 
        1998.

        Sumwalt, R.L., ``Integrating Human Factors into Aircraft 
        Accident Investigations.'' ISASI Forum. June-August 1998. 
        International Society of Air Safety Investigators.

        Sumwalt, R.L., ``Closing the Gap on CFIT.'' Professional Pilot 
        Magazine. January 1998.

        Sumwalt, R.L. ``Can You Throw Another Log on the Fire: Be 
        Careful What You Say.'' US Airways SAFETY ON LINE. December 
        1997.

        Sumwalt, R.L., Morrison, R.F, Watson, A. and Taube, E., ``What 
        ASRS Date Tell About Inadequate Flight Crew Monitoring.'' In 
        Proceedings of the Ninth International Symposium on Aviation 
        Psychology, Columbus, Ohio. April, 1997. (This paper prepared 
        under subcontract for NASA's Aviation Safety Reporting System.)

        Sumwalt. R.L., ``Avoiding the Fate of Icarus.'' Air Line Pilot. 
        April 1997.

        Sumwalt, R.L., ``A Human Performance Evaluation: The Effects of 
        Airport Curfews on Flight Crew Performance.'' Air Line Pilot. 
        March 1997.

        Sumwalt, R.L., ``Finding Fault.'' Professional Pilot Magazine. 
        February 1997.

        Sumwalt, R.L., ``Aircraft Malfunctions Require Crew 
        Coordination.'' Professional Pilot Magazine. January 1996.

        Sumwalt, R.L., ``Altitude Awareness Programs Can Reduce 
        Altitude Deviations.'' Flight Safety Digest. December 1995.

        Sumwalt, R.L., ``ASRS Incident Data Reveal Details of Flight-
        crew Performance During Aircraft Malfunctions.'' Flight Safety 
        Digest. October, 1995.

        Sumwalt, R.L., ``The Quest for Aviation Safety's Holy Grail: 
        Finding Underlying Causes of Accidents and Incidents or, If You 
        Really Want to Improve Aviation Safety, You Must First Identify 
        Systemic Problems.'' In Proceedings of Workshop on Accident and 
        Incident Human Factors. FAA, June 1995.

        Mancuso, V., Sumwalt, R.L., ``Human Factors Evaluation: Runway 
        Collision Between TWA Flight 427 and Superior Aviation Cessna 
        441, STL Airport, November 22. 1994.'' Airline Pilots 
        Association, May 1995.

        Sumwalt, R.L., ``Coping with Tiredness--Fatigue Part 2.'' 
        Professional Pilot Magazine. May 1995.

        Sumwalt, R.L., ``Flying Alert--Fatigue, Part 1.'' Professional 
        Pilot Magazine. April 1995.

        Sumwalt, R.L., Watson, A. ``What ASRS Incident Data Tell About 
        Flight Crew Performance During Aircraft Malfunctions.'' In 
        Proceedings of the Eighth International Symposium on Aviation 
        Psychology, Columbus, Ohio. April 1995.) (This paper prepared 
        under subcontract for NASA's Aviation Safety Reporting System.)

        Sumwalt, R.L., Cox, J.M. ``Aircraft Incident Report. Controlled 
        Flight Into Terrain: American West Flight 754, DFW Airport, 
        December 8, 1993.'' Air Line Pilots Association. September 
        1994.

        Sumwalt. R.L., Accident and Incident Reports Show Importance of 
        ``Sterile Cockpit Compliance,'' Flight Safety Digest. July 
        1994.

        Sumwalt, R.L., ``Crew Resource Management for All Operators.'' 
        ASRS Callback. July 1994. (This paper prepared under 
        subcontract for NASA's Aviation Safety Reporting System.)

        Sumwalt. R.L., ``There's No Such Thing as a Little Ice.'' 
        Professional Pilot Magazine. January 1994.

        Sumwalt, R.L., ``Watch Your Altitude.'' ASRS Callback. December 
        1993. (This paper prepared under subcontract for NASA's 
        Aviation Safety Reporting System.)

        Sumwalt, R.L., ``Incident Reports Highlight Problems Involving 
        Air Carrier Ground Deicing/Anti-icing.'' Flight Safety 
        Foundation Airport Operations. September/October 1993.

        Sumwalt, R.L., ``The Sterile Cockpit.'' ASRS Directline. June 
        1993. (This paper prepared under subcontract for NASA'a 
        Aviation Safety Reporting System.)

        Sumwalt, R.L., ``Aircraft Ground Deicing Problems: 
        Recommendations from Analysis of ASRS Incident Data.'' In 
        Proceedings of SAE Aircraft Ground Deicing Conference, Salt 
        Lake City, Utah, June 1993.

        Sumwalt, R.L., ``ASRS Problems Involving Air Carrier Ground 
        Deicing/Anti-icing.'' In Proceedings of the Seventh 
        International Symposium on Aviation Psychology, Columbus, Ohio. 
        April 1993. (This paper prepared under subcontract for NASA's 
        Aviation Safety Reporting System.)

        Sumwalt, R.L., ``Ground Deicing Problems in Air Carrier 
        Operations.'' ASRS Callback. February 1993. (This paper 
        prepared under subcontract for NASA's Aviation Safety Reporting 
        System.)

        Sumwalt, R.L., ``Rejected Take-off Considerations for Fokker 
        100 and F28.'' Fokker Aircraft Wingtips. December 1992.

        Sumwalt, R.L., ``Preventing Pilot-caused Runway Incursions.'' 
        Professional Pilot Magazine. December 1992.

        Sumwalt, R.L., ``Accident Investigation School Teaches How to 
        Find Probable Cause.'' An inside look at the NTSB's accident 
        investigation school. Professional Pilot Magazine. October 
        1992.

        Sumwalt, R.L., ``Leadership on the Flightdeck Reflects 
        Training.'' Professional Pilot Magazine. June 1992.

        Sumwalt, R.L., ``Taxi!'' ASRS Directline. Summer 1992. (This 
        paper prepared under subcontract for NASA's Aviation Safety 
        Reporting System.)

        Sumwalt, R.L., ``NTSB's John Lauber Digs for Probable Cause.'' 
        Professional Pilot Magazine. January 1992.

        Sumwalt, R.L., ``Weather or Not to Go.'' Professional Pilot 
        Magazine. January 1992.

        Sumwalt, R.L., ``Be Prepared to Abort: Rejected Takeoffs, Part 
        Two.'' Professional Pilot Magazine. December 1991.

        Sumwalt, R.L., ``Rejected Takeoffs. Part One.'' Professional 
        Pilot Magazine. November 1991.

        Sumwalt, R.L., ``The Importance of Proper Aviation Weather 
        Dissemination to Pilots: An Airline Captain's Perspective.'' In 
        Proceedings of the Fourth International Symposium on Aviation 
        Weather Systems, Paris, France. June 1991.

        Sumwalt, R.L., ``Eliminating Pilot-Caused Altitude Deviations: 
        A Human Factors Approach.'' In Proceedings of the Sixth 
        International Symposium on Aviation Psychology, Columbus, OH. 
        May 1991.

        Sumwalt, R.L., ``Checking the Checklist.'' Professional Pilot 
        Magazine. March 1991.

        Sumwalt, R.L. ``Altitude Callouts: Who, When and Why.'' 
        Airwaves. February 1991.

        Schwab, A., Sumwalt, R.L., The Terminal Checklist Book. 
        Queensmith Publications, December 1990.

        Sumwalt, R.L., ``Flightcrew Interactions.'' Professional Pilot 
        Magazine. November 1990. Sumwalt, R.L. ``Altitude Awareness.'' 
        Professional Pilot Magazine. September 1990.

        Sumwalt, R.L., ``Gulfstream 4 Phase 2 Flightcheck.'' 
        Professional Pilot Magazine. February 1990.

        Sumwalt, R.L., ``Piaggio P180 Avanti Flightcheck.'' 
        Professional Pilot Magazine. July 1989.

        Sumwalt, R.L., ``Slippery When Wet.'' Professional Pilot 
        Magazine. March 1989.

        Sumwalt, R.L., ``Stop! More Efficiently.'' Professional Pilot 
        Magazine. September 1988.

        Sumwalt, R.L., ``The Cat's Eye (FLIR Technology to Enhance 
        Instrument Landings).'' Professional Pilot Magazine. September 
        1988.

        Sumwalt, R.L., ``Fokker 50 Flightcheck.'' Professional Pilot 
        Magazine. August 1988.

        Sumwalt, R.L., ``Advanced Avionics: The New Generation.'' 
        Professional Pilot Magazine. May 1988.

        Sumwalt, R.L., ``Fokker 100 Flightcheck.'' Professional Pilot 
        Magazine. March 1988.

        Sumwalt, R.L., ``Cockpit Resource Management.'' Professional 
        Pilot Magazine. December 1987.

        Sumwalt, R.L., ``Category 3 Operations.'' Piedmont Airlines 
        B737 Flight Crew Training Manual. September 1987.

        Sumwalt, R.L., ``TCAS Growing Pains.'' Professional Pilot 
        Magazine. April 1987.

        Sumwalt, R.L., ``Improving Stopping Efficiency.'' Piedmont 
        Airlines Operations Update. December 1986.

        Sumwalt, R.L., ``Improving Pilot Interpretation of Airborne 
        Weather Radar.'' Professional Pilot Magazine. June 1986.

        Sumwalt, R.L., ``F28 Flightcheck,'' Professional Pilot 
        Magazine. March 1986.

        Sumwalt, R.L., ``Low Visibility Operations,'' Professional 
        Pilot Magazine. February, 1986.

        Sumwalt, R.L., ``Deadly Persuader: Low Altitude Windshear.'' 
        Professional Pilot Magazine. October 1985.

        Sumwalt, R.L., ``Fuel Management Guide for Pilots.'' Piedmont 
        Airlines Route Manual. August 1985.

        Sumwalt, R.L., ``Flying By the Book.'' Professional Pilot 
        Magazine. May 1985.

        Sumwalt, R.L., ``Descent Techniques for Fuel Efficiency.'' 
        Piedmont Airlines Operations Update. Piedmont Airlines. March 
        1985.

        Sumwalt, R.L., ``Fuel Conservation.'' Piedmont Airlines 
        Operations Update. December 1984.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I retired from US Airways and am the recipient of a pension that is 
based upon service with US Airways. However, with US Airways' 
bankruptcy, the pension is handled through the Pension Benefits 
Guaranty Corporation and, as such, is no longer contingent upon US 
Airways. The Ethics Agreement that I have entered into with the NTSB 
Ethics Official contains a provision that is designed to avoid any 
appearance of conflict in cases before the Board in which US Airways is 
or represents a party.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    No. My Ethics Agreement stipulates that I will resign my positions 
with the entities with which I have an active, on-going position or 
involvement.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I currently own stock in Exxon Mobile Corporation and SCANA 
Corporation. The NTSB's Designated Agency Ethics Officer (DAEO) has 
advised me that these financial holdings could create the potential for 
a conflict of interest for me in my capacity as a Member of the NTSB, 
should I be confirmed. Therefore, in accordance with NTSB DAEO's 
direction and advice, my Ethics Agreement states, ``. . . I understand 
that, should I be confirmed as a Member of the NTSB, within a 
reasonable period of time thereafter, in order to perform the duties of 
Board Member and avoid conflicts under 18 U.S.C. Sec. 208, I will be 
required to divest these financial interests.''
    Currently I have funds in my employer's (SCANA Corporation) 401(k) 
program. My SF278, ``Executive Branch Personnel Public Financial 
Disclosure Report,'' Schedule C, Part II, dated June 6, 2006 states: 
``Pursuant to employment contract, [I] will be able to leave 
investments in the 401(k) program of SCANA. I will not be able to 
continue investing in the fund and SCANA will make no contributions to 
the fund subsequent to my resignation from the company.''
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    My Ethics Agreement points out that I am I am retired from US 
Airways, for whom I served as an airline pilot for approximately 24 
years. The retirement/pension to which I should have been entitled is 
now provided and handled under the auspices of the Pension Benefit 
Guaranty Corporation, a governmental agency. I have no financial 
interest in US Airways. However, with regard to the sensitivities of 
what might be perceived as a relationship with this former employer, 
the NTSB's Designated Agency Ethics Officer (DAEO) has advised me, and 
I have agreed that if confirmed to this position, I will not 
participate in any particular matter that comes before the Board 
involving specific parties in which US Airways, or any wholly owned 
subsidiary of US Airways, is or represents a party unless authorization 
to participate is granted in accordance with the procedures set forth 
at 5 CFR Sec. 2635.502.
    My Ethics Agreement further states that should I be confirmed to 
this position, prior to commencing my duties as a Member of the NTSB. I 
will resign my positions with the entities with which I have an active, 
on-going position or involvement. Further, pursuant to 5 CFR 
Sec. 2635.502, I will not participate in any particular matter 
involving specific parties in which any of these entities is or 
represents a party for a period of 1 year after my resignation from the 
entity unless authorization to participate is granted in accordance 
with procedures set forth at 5 CFR Sec. 2635.502.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In accordance with my EA, I have agreed to recuse myself in 
circumstances that would be a conflict of interest and to seek advice 
in those situations in which there was an appearance of a conflict.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    There is nothing unfavorable.
    As far as favorable information, I would like the Committee to know 
that I have a longstanding commitment to and passion for improving 
aviation safety. I will work very diligently to use my knowledge, 
skills and experience to help improve safety in all modes of 
transportation safety. My work ethic is unsurpassed. Below is a summary 
of my credentials.

  <bullet> Strong background with aircraft accident investigation, 
        including serving as a party member of accident investigations 
        with NTSB and Transportation Safety Board of Canada.

  <bullet> Co-authored book on aircraft accidents. This book is used as 
        a textbook for all accident investigation courses taught by 
        Embry Riddle Aeronautical University.

  <bullet> Published over 85 articles on aircraft accident 
        investigation, aviation human factors, cockpit procedures 
        issues and aviation safety program development.

  <bullet> Currently teach human factors in the University of Southern 
        California's Aviation Safety and Security Program.

  <bullet> Recipient of two prestigious air safety awards: Flight 
        Safety Foundation Laura Taber Barbour Air Safety Award (2003) 
        and ALPA Air Safety Award (2004).

  <bullet> Served as an airline pilot for 24 years with US Airways.

  <bullet> Currently manage the aviation department for a Fortune 500 
        company.

  <bullet> Served on Air Line Pilots Association (ALPA) Accident 
        Investigation Board.

  <bullet> Served as Chairman of Human Factors and Training Group of 
        ALPA.

  <bullet> Strong writing, public speaking and interpersonal skills.

  <bullet> Team player and consensus builder.

    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much Mr. Sumwalt. First, 
Senator Lott has not commented. Go ahead Senator Lott.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you Mr. Chairman. I just wanted to come 
and express my appreciation for this group of nominees. It is 
an outstanding group. You may not have been nominated to be 
Cabinet Secretaries yet, but you are all nominated for very 
important assignments. I am familiar with the background of 
several of you, and I think you are really a well-qualified 
group.
    I do want to thank Mr. Nottingham for his help in the 
aftermath of Hurricane Katrina. We did have occasion to seek 
his assistance with some of our issues there along the Gulf 
Coast. You were very helpful and we appreciate that.
    I am glad to see us putting some local elected officials in 
some of these positions. I think it will serve us all well. I 
do want to emphasize that you all have these important 
assignments. I am very concerned about Maritime Administration 
and the strength of our maritime industry. We have some 
problems we are facing right now. I want to make sure the 
Administration understands and appreciates the need for the 
Jones Act, and so I'm counting on you Mr. Connaughton, to work 
with us to make sure we do the right thing for the maritime 
industry.
    And also, Mr. Nottingham, let me just say that I have a lot 
of interest in surface transportation and railroads. We have an 
opportunity here to improve service, expand capacity, better 
serve the economy, and prepare for the future. I am counting on 
you to provide fair and strong leadership as we move in that 
direction.
    So congratulations to all of you. I certainly will support 
your nominations and I hope we can move them before the August 
recess. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Let me first start with 
comments and questions for Mr. Sumwalt.
    Three of the saddest days of my life involve briefings from 
your agency. One was an airplane that I barely missed getting 
on and it crashed, and with many of my friends on board and I 
was briefed on what happened to that airplane.
    The second was when I survived the crash and five people 
including my wife were killed and they came and told me what 
had happened.
    And the third was when the Alaska Airlines coming out of 
Mexico went into an inverted spin and crashed carrying a whole 
series of people that I had grown up with. Your Board has more 
contact I think with the people than you realize, and we all 
when we are exposed to circumstances like that want to know 
what happened. So, I want to ask you a couple of sort of 
preventive questions. I'm sure you know that the recent 
reduction in our accident rate in Alaska has been dramatic; 
brought about by the Medallion program and the programs that we 
put into effect to have continuing education for pilots and to 
continue the utilization of new technology. Have you ever been 
in Alaska?
    Mr. Sumwalt. Yes, sir I have had the pleasure to make three 
visits; twice in 2004 to work with a large corporation as a 
consultant for them in Alaska. I was there to work with their 
company to help them with some aviation safety issues and--yes, 
sir?
    The Chairman. Did you travel around the state? Are you 
familiar with some of the problems we face with 70 percent of 
our cities reached only by air, and the problems of mixing 
cargo and passengers and trying to keep planes flying long 
after they are utilized in other parts of the country, if not 
the world?
    Mr. Sumwalt. Yes, sir I have a folder about 1 inch thick in 
my briefcase about aviation safety issues in Alaska, and I read 
all of the proceedings from the field committee hearing that 
you held on July 5. I have tried to familiarize myself with 
those issues. I am very familiar with the Medallion Foundation. 
I know Jerry Dennis and several of the staff there, and I am 
very happy with what they have been able to do.
    The Chairman. Well, you come very highly recommended by 
Senator DeMint, and I have looked into your own record 
personally because I have such an extreme interest in your 
Board and I welcome you and look forward in assisting you in 
terms of your confirmation.
    Mr. Sumwalt. Thank you, sir.
    The Chairman. Admiral, just one question for you. I am sure 
you are familiar with this. The report of the National 
Academies entitled ``Rising Above the Gathering Storm? ''
    Admiral Cohen. Yes, sir.
    The Chairman. I, and this committee, have been very much 
involved with that and the indication that the unintended 
consequence of our handling graduate students from our 
universities so that once they are getting their education, 
they are going elsewhere, particularly to China and India, and 
really the failure of many institutions to recognize the 
challenges that they face. Do you feel in your work as Under 
Secretary of Homeland Security you can have an impact on the 
problems outlined by that report?
    Admiral Cohen. Absolutely, Mr. Chairman. First of all, I 
would like to compliment you. I learned from your staff of your 
extensive efforts in mentoring people on your staff over many 
years, and I think mentoring is absolutely the most effective, 
if not the most efficient way to help turn this around. But in 
my personal view, we are in a crisis in this country in science 
and technology. Young students in the middle schools are 
turning away from math and science. You have already indicated 
a problem with graduate and post-graduate degrees in students. 
We grew up with Mr. Wizard and each of us can remember a 
teacher that changed our lives in math and science, made it 
fun, made it challenging. I think a current statistic is as 
many as 80 percent of high school math and science teachers 
today, although good teachers, have not been specifically 
trained in math and science. This goes to not only our national 
security, but our economic well-being, the economic and 
innovation engine that powers our economy. You know some of the 
things, as does Co-Chairman Inouye, that I did naval research 
with summer interns, bringing them into our government 
laboratories, exposing them to scientists and engineers for 
rising juniors, seniors and graduate students, and if 
confirmed, I can tell you that in the long-term, the dedicated 
research component of my portfolio, I will be personally 
involved with this and I salute you for bringing this to 
everyone's attention, sir.
    The Chairman. Thank you and thank you once again for 
bringing these distinguished ladies to our committee hearing 
today.
    Mr. Weinecke, NOAA has a substantial impact on the offshore 
states that the Co-Chairman and I represent, and we are 
disturbed by the fact that there hasn't been a real articulate 
advocate for NOAA and NOAA continues to get cuts as the budget 
goes through the Office of Management and Budget. Can you tell 
us that you are going to take that role of advocating NOAA for 
the future?
    Mr. Weinecke. Mr. Chairman, I can tell you that I will 
absolutely be an advocate for your voice and the Members of 
this committee on the Hill and within the Department of 
Commerce for NOAA; it is an incredibly important part of our 
mission and is over 60 percent of our budget. At the Department 
it is--the resources that they bring to bear for your 
constituents and the entire country are critical and I commit 
to do that.
    The Chairman. Well, we've lost the leadership of an old 
friend. Senator Hollings was our expert in the oceans for many 
years and he was very articulate. He really wanted NOAA to 
become an independent agency, and we didn't cooperate with him 
on that, but I am coming close to saying he was right, and 
unless something is done down there at the Department of 
Commerce that puts the emphasis on NOAA it should have, I 
intend during the next Administration to try and make it an 
independent agency. You've got a couple years to convince us 
that that agency has a spokesman and advocacy that it needs.
    Sean Connaughton, I don't have any questions for you 
either, but I do think you have a terrific job ahead of you to 
improve the competitiveness of U.S. Maritime industry, and I 
hope you are prepared to come before the Committee and give us 
some ideas and new plans for the improvements of the maritime 
ship disposal program. We look forward to hearing from you 
following your confirmation.
    Mr. Nottingham, I hope you listened to Senator Lott. He 
probably is our leader here in the total concept of surface 
transportation, and I do think we have one great issue and that 
is the use of arbitration to settle rate disputes. I think this 
committee ought to go into that subject. We will seek your 
views on the use of arbitration and rate disputes in the 
future.
    Thank you very much.
    Senator Inouye.
    Senator Inouye. Thank you very much. Admiral Cohen, I am 
certainly aware that the Congress has been a bit disappointed 
with the performance of the Science and Technology directorate. 
There is no integrative research planned with performance 
measures. What actions do you intend to take to improve the 
directorate?
    Admiral Cohen. Well, Co-Chairman Inouye, I know your 
personal interest in science and technology as an incubator of 
innovation and how important that is, not only for Hawaii, but 
also for the free world. I have had a chance to review the 
Fiscal Year 2007 Senate appropriations language which is very 
stern and very direct. There is much to be done. I truncated my 
introductory remarks. I could probably take the rest of your 
afternoon here describing what needs to be done, but I am not 
yet associated with the Department of Homeland Security. I've 
not been in the consultant role. All I can say to you sir, is 
that over the five plus years that I was at the Office of Naval 
Research, I encountered many of the same kinds of problems even 
though Office of Naval Research was very mature and a very 
effective organization, it was not customer or output-oriented. 
It was more provider and input-oriented and in today's world, 
time to market, time to delivery, customer focus for the front 
line whether they're local, state, tribal, or first responders 
under the auspices of the Department of Homeland Security, they 
must have near-term enhancements as well as long-term leap 
ahead improvements and capability.
    And so, if confirmed, I will bring the same management 
approach and leadership approach and hands-on personal 
involvement that you saw at the Office of Naval Research to get 
our budget process right, get our requirements process right, 
get our balance between long-term research and near-term 
enhancements and deliverables right with full disclosure to the 
Congress. And it's a big job, and Senator I know frequently you 
hear that when individuals leave government, they say its to 
spend more time with their family, but my lovely wife, Nancy, 
reminded me that coming back in the government, it was to spend 
less time with my family, and so it's a great challenge and I 
look forward to it sir, if confirmed.
    Senator Inouye. Well, Admiral, we look forward to working 
with you, sir. Since time is of the essence here, may I now go 
to Mr. Connaughton.
    We have this cargo preference requirement. How will you 
strengthen compliance, and oversight of that?
    Mr. Connaughton. Thank you very much for the question, 
Senator Inouye. Obviously, one of the responsibilities of the 
Maritime Administration is to help enforce the cargo preference 
laws of the United States. I am generally familiar with these 
laws. I've been briefed from members of the Maritime 
Administration regarding how they currently do that type of 
enforcement. If I am confirmed, I will make sure that we 
enforce those laws and that we'll end up with a system that is 
transparent and that people know what the requirements are and 
that those requirements are followed in accordance with the 
law, sir.
    Senator Inouye. Am I correct to assume that you support the 
intent and purpose of the Jones Act?
    Mr. Connaughton. Mr. Co-Chairman, I will tell you that the 
Administration strongly supports the Jones Act and I strongly 
support the Jones Act as well, sir.
    Senator Inouye. In your testimony you mentioned that you 
hope to bring the U.S. flag fleet back to the predominant role 
it once had. How do you plan to do that?
    Mr. Connaughton. Mr. Co-Chairman, I appreciate that 
question very much and if I am confirmed, I will work very 
closely with yourself, with this committee and other Members of 
Congress and the industry to work together cooperatively, to 
develop a shared vision about where we want to see the maritime 
industry, and the marine transportation system in the future. I 
recognize this is a very, very tall order, and one of the 
things, if I am confirmed, I will focus on immediately is 
meeting with industry leaders, meeting with Members of Congress 
and staffs and within the Administration to help develop a 
long-term plan on how we make the U.S. industry more 
competitive and how we make sure that it fits in within the 
long-term strategic goals and plans of the Department of 
Transportation.
    Senator Inouye. Thank you very much Mr. Weinecke. As a 
member of an island state, I am naturally concerned about the 
mission of NOAA, and I concur fully with Chairman Stevens' view 
on NOAA. Do you believe that NOAA is very important?
    Mr. Weinecke. Mr. Co-Chairman, NOAA is a critical and 
integral part of the Department. One of my primary focuses over 
the last year has been the re-authorization of the Magnuson-
Stevens Act and the NOAA Organic Act, the National Offshore 
Aquaculture Bill, the Marine Mammal Protection Act. The 
Department of Commerce and the Administration is absolutely 
committed to these. They will strengthen NOAA, make it a better 
place and more effective and you have my commitment to work 
with you hand-in-hand to pass these critical pieces of 
legislation.
    Senator Inouye. Thank you very much. I wish to commend all 
of you for coming forward to serve our Nation, and I can assure 
you that this committee will help you in your work. 
Congratulations on your nominations.
    The Chairman. Thank you Senator.
    Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM, MONTANA

    Senator Burns. Thank you Mr. Chairman. I have one question, 
and that is of Mr. Nottingham and I have some other questions, 
but I will forward them along later. Previous nominees, Mr. 
Nottingham, have sat right in that same chair that you're 
sitting in right now and promised this committee they'd get the 
small rate case procedure in place on the Surface 
Transportation Board and it has yet to come. They made those 
commitments about transparency and improved procedures, 
enhanced competition and a whole host of promises. You tell me 
why you're going to be any different than the ones that 
preceded you?
    Mr. Nottingham. Thank you for the question, and thank you 
for the time you've given me personally in your office to 
better understand the challenges that confront your great 
state, Montana and for introducing me to some of your 
constituents from the grain and wheat industries. And your 
staff has helped educate me on many of your concerns as well. I 
can't speak for former nominees. I can only tell you who I am 
and what experience and commitments I bring forward if 
confirmed to the STB. I am dedicated to making government work 
better for the people. I've done that. It's not just a slogan. 
I've done it in Virginia when I ran one of the largest and most 
complex State agencies there and delivered over 100 management 
reforms tackling problems that people had complained about for 
decades, and I've done it throughout my career working back on 
the Government Committee on the House side and with Congressman 
Davis trying to resolve problems.
    And I will, if confirmed, pledge to you to work closely 
with you and your staff and your people and tackle the issues, 
get in there and really learn the details of the challenges. I 
am concerned about the time it seems to take and the cost that 
it seems to take to pursue a claim before the STB. I have heard 
loud and clear from stakeholders that it has a somewhat a 
chilling effect on conflict resolution which is one of the 
missions of the STB, and I am committed to getting in there, if 
confirmed, and identifying those problems and tackling them. 
And if we can't tackle them administratively there, to bring 
ideas and recommendations forward to work with Congress to make 
sure they get addressed.
    Senator Burns. Well I thank you and I thank you for meeting 
with some of the people of my constituents and I would 
appreciate that. There is no doubt in my mind that you're not 
going to be confirmed. You can rest easy on that. That's the 
only question I have as time is of the essence, and I have 
another--but I too want to echo the words of my good friend 
from Hawaii. I thank you for stepping forward, all of you to 
serve your Nation. It is great that we still have people that 
put the Nation's interest and the citizens of the United States 
before themselves and serve this great country with great 
talent and intelligence and with great integrity, and so we 
appreciate every one of you stepping forward and doing that.
    And Mr. Chairman, thank you very much.
    The Chairman. Thank you very much. Let me tell all of you 
nominees that there have been questions filed from both sides 
of the aisle which we would ask you to respond to. If we can 
get the responses quickly, we will try to have the meeting off 
the floor of our committee sometime early next week, so we can 
get these nominations up and confirmed. We have to report them 
first so they go on the calendar and then they are subject to 
review by all of the Members of the Senate, but we will do our 
best to get them cleared before the end of next week when we 
expect to recess for our August period. And let me again, 
Admiral, tell you that we appreciate you bringing Mrs. 
Rickover. We remember so well meeting with your husband so 
often, the Admiral, and how gracious he was and how much he 
contributed to the future of our Navy, so we thank you for 
taking the time to come with Admiral Cohen.
    Thank you all very much. Do you have any final statements, 
Senator?
    Thank you all very much. We will do our best to get these 
nominations cleared before we leave.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]
                            A P P E N D I X

               Prepared Statement of Hon. Frank R. Wolf, 
                   U.S. Representative from Virginia
    Mr. Chairman, it gives me great pleasure to lend my support today 
to Sean Connaughton to become the next Administrator of the U.S. 
Maritime Administration.
    As the U.S. Representative of the 10th Congressional District of 
Virginia which includes parts of Prince William County, I have had the 
privilege of working with Sean in his capacity as Chairman of the 
Prince William County Board of County Supervisors. He is a dedicated 
public servant who has diligently worked to address issues facing fast-
growing suburban counties like Prince William. He has done so working 
in a bipartisan manner to promote the county as a great place to live, 
work and raise a family while also protecting the interests of Prince 
William citizens.
    While he has devoted the past 7 years serving Prince William 
County, his education and experience make him well qualified to lead 
the U.S. Maritime Administration. He is a graduate of the U.S. Merchant 
Marine Academy where he received his bachelor's degree in 1983. From 
1988 to 1992, he was the Senior Marine Transportation Associate for the 
American Petroleum Institute. He worked as a civil servant for the U.S. 
Coast Guard from 1986 to 1988 and served on active duty in the U.S. 
Coast Guard from 1983 to 1986 and in the U.S. Naval Reserve from 1986 
to 2006.
    Sean is a man of honor and integrity. He understands transportation 
and maritime issues and will serve our country well as the 
Administrator of the U.S. Maritime Administration.
    Mr. Chairman, I urge the Committee to recommend his confirmation. 
Thank you again for the opportunity to address the Committee.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                          Admiral Jay M. Cohen
    Question 1. If confirmed as Under Secretary for Science and 
Technology (S&T), would you consider the use of commercially-available 
devices, services or technologies to fulfill the mission of S&T?
    Answer. In my experience in Naval S&T at the Office of Naval 
Research, there are generally three options available for use to 
fulfill service/agency missions: Commercial off the Shelf (COTS), 
Modified/Militarized off the Shelf (MOTS) and Government off the Shelf 
(GOTS) (or as I think of it, what you already ``got''). If confirmed, I 
would absolutely consider (and favor due to cost, technological 
currency, ease of update/modernization and generally wider spread 
utilization across society) the use of commercially-available devices, 
services and technologies wherever and whenever they made mission and 
economic sense.

    Question 2. If confirmed as Under Secretary for Science and 
Technology, you would be responsible for developing standards for first 
responder equipment and technology. In this role, do you believe that 
such standards may include commercially-available devices, services or 
technologies?
    Answer. If confirmed, I will, to the maximum extent practicable, 
utilize standards that include commercially-available devices, services 
and technologies to better support local, state and tribal first 
responders. Where such commercial solutions are not available or 
immediately applicable, due to unique Homeland Security mission 
requirements, lack of an existing commercial industrial base/market or 
national security considerations, if confirmed, I will work with 
government/defense, industry and professional organizations responsible 
for developing, recommending and setting standards in order to leverage 
and optimize commercial solutions to the fullest.

    Question 3. In your role as Chief of Naval Research, what was your 
experience in using commercially-available devices, services or 
technologies?
    Answer. As Chief of Naval Research I strongly encouraged the use of 
commercially-available devices, services and technologies to speed 
``time to market'' for our Sailors and Marines in combat. When 
commercial solutions are objectively evaluated and applied to Naval 
needs, my experience was that they generally performed well and were 
available for use in less time and at lower cost than uniquely 
government solutions.
    As an example, in 2000, I established at ONR, a web-based 
``Technical Solutions'' Group which received input and requests 
directly from Sailors and Marines. These young men and women are ``tech 
savvy''. While acquisition systems commands are the customer for Naval 
Research S&T output, Sailors and Marines are the ``customer of the 
customer''. I considered their needs to be important and therefore 
developed an efficient and credible method to address their challenges.
    When problems or suggestions were received by Tech Solutions, ONR 
would ``broker'' those to what I termed the Naval Research Enterprise; 
naval warfare centers, university and laboratory partners and industry 
so that they might compete to provide the most effective technology 
solution, at lowest cost in the required timeframe. Examples of 
deliverables which utilized commercial technologies include long life 
(nearly maintenance free) LED shipboard battle lanterns, commercial 
Draeger tubes with slightly modified/militarized electronics for 
reliable contaminant sensing in the field, ``LightSpeed''--a commercial 
pulsing LED technology which we only ``packaged'' for secure, reliable 
Line-of-Sight communications both at sea and ashore, web-enabled Voice-
over Internet Protocol underwater communications for Navy SEALS and 
even a ``Zamboni'' to degrease aircraft carrier flight decks in the 
130+ F heat of the Arabian Gulf.
    If confirmed, I will continue to emphasize use of commercial 
solutions and ensure that similar, customer friendly responsive tools 
are put in place at DHS S&T.

    Question 4. Do you believe that there is a role for ``Voice-over-
Internet Protocol'' technologies in fulfilling the mission of 
interoperability between first responders?
    Answer. Interoperability has been and regrettably remains one of 
the biggest challenges not only for homeland first responders, but our 
21st century military as well. Voice-over-Internet Protocol (VoIP) is a 
rapidly developing tool (one of many) that I believe should be further 
explored for wider use by first responders.
    If we are to be successful in effectively and efficiently meeting 
the challenges which our first responders face from both natural and 
manmade events/attacks not only must their command, control, 
communications and computers be interoperable, but the system must also 
be reliable and rapidly scaleable from the smallest agency component to 
the DOD and other major Federal and international law enforcement and 
disaster response organizations. These capabilities must be achieved at 
an affordable cost with security that prevents system integrity from 
being compromised or worse, subjected to being hacked/deceived. The 
World Wide Web is ubiquitous and ``self healing'' because of the large 
number of alternate nodes, transmission paths and means for maintaining 
communications among first responders at different locations and chain 
of command levels. I personally believe VoIP could play a significant 
role in fulfilling mission interoperability between first responders.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Trent Lott to 
                          Admiral Jay M. Cohen
    Question. You did a great job getting Navy R&D focused on the needs 
of the Navy war fighters. At DHS, you will have a similar challenge, 
but with more agencies. Some of these agencies brought their own R&D 
programs to DHS. How would you focus DHS R&D to better serve the needs 
of front-line homeland security personnel and reduce the risk of 
transitioning new technologies into everyday DHS operations?
    Answer. Senator Lott, First allow me to thank you for your strong 
and sustained personal support for R&D and especially Science & 
Technology (S&T) in our Navy and Marine Corps. You understand the value 
of a balanced research portfolio that delivers immediate enhancements 
to our DOD war fighters and our DHS first responders now, as well as 
the need for thoughtful, sustained and focused long-term basic research 
into those areas and disciplines that will yield the ``Eurekas'' or 
breakthroughs that fundamentally change how we approach a problem.
    I appreciate your kind words for my service in the Navy in time of 
war. I can assure you any successes our scientists and engineers 
enjoyed in enhancing the capabilities (and protection) of our Sailors 
and Marines were the result of a team effort that included DON, 
Congress, government agencies, industry, research institutions, 
innovators (large and small) and the direct involvement/voice of the 
fighting personnel whose success and lives depend upon the output and 
products from R&D.
    As you noted, DHS has more agencies (about 20+) than DON and in 
what is a new Department (DHS), some agencies have had their own R&D 
programs/laboratory facilities. While the magnitude of the challenge 
today at DHS to bring together varying agency ``cultures'' in order to 
better focus DHS R&D in support of front-line homeland security 
personnel (the DHS `customers' for our R&D/S&T OUTPUT) is greater than 
that which I faced in Navy, the fundamentals are similar.
    While I am not currently either an employee of or consultant to 
DHS, I have studied the DHS enabling legislation (especially that 
portion which established the DHS S&T Directorate). The guidance in 
that legislation is comprehensive and clear in its desire to create a 
lean, agile, efficient and highly effective R, D, T&E organization to 
leverage and enhance existing U.S. Government research initiatives, 
activities and laboratories so as to avoid duplication where possible 
and better focus on the unique needs of our first responders where 
other research activities are not. Any successful S&T management 
organization (like the Office of Naval Research) has both science and 
technology providers along with research and development product 
customers. Time frames, investment portfolios, level of technological 
risk and personnel (i.e., scientists versus engineers versus program 
managers, budget and contract specialists) vary from discipline to 
discipline and customer to customer. If confirmed, I would use the same 
proven principles and methods at DHS, which I helped enhance at ONR to 
more directly and continuously involve the first line responders in 
setting requirements and needs (DEMAND), while empowering the 
scientists and innovators on the ``input'' side (SUPPLY). When you give 
the customer what they want and need and you focus the underlying 
technology discovery and invention on the customer through ongoing give 
and take dialogue, risk of transition is greatly reduced and the Nation 
benefits. It wasn't easy with the Air, Surface, Sub and Land ``unions'' 
in DON. With your support, I look forward to the challenges of service 
at DHS.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John E. Sununu to 
                          Admiral Jay M. Cohen
Counter-MANPADS Program
    Question 1. As we discussed when we met last week, the Counter-
MANPADS program was appropriated $110 million in FY06 to complete Phase 
III of the program, which was the flight testing of two systems in 
``real-world'' operations. The Department took about $20 million from 
the program to use for other purposes, and I commend your attention to 
report language on that topic in the Senate's version of the FY07 DHS 
appropriations bill. This reprogramming caused the Counter-MANPADS 
office to forego a passenger aircraft study of a system and conduct 
only cargo aircraft study.
    DHS created the Counter-MANPADS office to develop a system or 
systems to protect domestic aircraft from shoulder-fired missiles so 
that Congress and other policymakers could then determine whether to 
utilize this technology. Protecting cargo aircraft is important, but we 
all know the protection of our passenger aircraft is of primary 
importance. Of course, the operations of cargo aircraft are profoundly 
different than the operations of passenger aircraft. For DHS to submit 
a report to Congress on the findings of the Counter-MANPADS program 
without having flight tested a system on passenger aircraft would be 
counterintuitive, and provide an incomplete assessment to policymakers 
of available technology. To address this, the Senate included an 
additional $35 million above the President's FY07 request for the 
Counter-MANPADS program so the Department may conduct a study of a 
system on passenger aircraft, and addressed this in the report 
accompanying the bill.
    Will you protect the remaining FY06 funds, and future funding for 
the Counter-MANPADS program from future reprogramming?
    Answer. Senator Sununu, first allow me to thank you for taking your 
valuable time to meet with me and share your concerns regarding the 
Department of Homeland Security. As we discussed, if I am confirmed as 
the Under Secretary for Science and Technology at DHS, I will work with 
the Congress, staff, industry, research institutions/laboratories/
academia to provide our first responders and the Nation the 
capabilities to meet not only our most pressing immediate threats, but 
also invest in the basic research necessary to prevent future 
technological surprise and achieve ``leap ahead/game changing'' 
technological advantage over those that would threaten our way of life 
and freedoms. As you suggested, I have reviewed the stern report 
language in the Senate's version of the FY07 DHS appropriations bill.
    I am neither an employee of nor consultant to DHS. I have not been 
made privy to the contents of what I understand is an overdue DHS post-
Phase II Counter-MANPADS program report.
    While I am not presently knowledgeable of the DHS program, having 
recently completed more than 5 years as the Chief of Naval Research, 
responsible for the Office of Naval Research in the Department of the 
Navy in wartime, I am very familiar with the Tactical Air Directed 
Infra Red Counter Measures (TADIRCM) program. Navy research has been 
working on this important countermeasure for more than a decade at the 
Naval Research Laboratory, White Sands Proving Ground and China Lake, 
CA. This development program has resulted in a highly effective IR 
countermeasure device that has been successfully installed/tested on 
flying drone aircraft against actual MANPAD weapon firings. I 
understand that Naval Air Systems Command (working with commercial 
defense contractors) is in the process of transitioning this capability 
to Navy and Marine Corps F/A 18 aircraft and that some U.S. Army 
helicopters are already equipped with TADIRCM. If confirmed to be the 
next Under Secretary for Science and Technology at the Department of 
Homeland Security, I will bring this technical knowledge and program 
management experience to the DHS Counter-MANPADS program.
    Additionally, if confirmed, I will work with the Congress to spend 
FY06 and future Counter-MANPAD funding as intended and ensure that 
overhead costs associated with the Counter-MANPAD program are 
absolutely minimized.

    Question 2. Do you agree that a study of available Counter-MANPADS 
technology must be conducted on passenger aircraft to ensure a full and 
complete assessment of the technology's applicability to commercial 
aircraft, and will you make sure such a study is conducted?
    Answer. As you indicated above, cargo and passenger aircraft 
operations are different. To the extent that Counter-MANPADS tests on 
either type aircraft could be used to determine the best solution to 
both, I think that would be a good use of taxpayer dollars. If the DHS 
post-Phase II Counter-MANPADS report (which is due to Congress) does 
not adequately address the unique operational differences between cargo 
and passenger aircraft, if confirmed, I will ensure that an assessment 
of available Counter-MANPADS technology for passenger aircraft will be 
expeditiously conducted.
Commercial Port Security
    Question 3. The possibilities of attack from water-based operations 
at our commercial ports are endless. Although there are systems 
available to detect these threats in the military world, we know that 
the costs of these systems currently prohibit their introduction into 
the private sector. During your tenure at the Office of Naval Research, 
more cost-effective swimmer detection sonar networks were studied and 
evaluated with great success. The maturity of these ONR-funded systems 
leads one to believe that DHS would be well served to evaluate the work 
that has come from the ONR efforts. Given your success at ONR in 
developing these sonar networks, what are your plans for doing so at 
DHS for commercial applications?
    Answer. Senator Sununu, as you note, the possibilities for attack 
at our commercial ports are endless. That includes not only water-
based, but also air and land attacks. Thank you for your kind words 
concerning the efforts of the Office of Naval Research to develop and 
demonstrate (in real-world situations) effective swimmer detection 
sonar networks. If confirmed (and consistent with the enabling 
legislation for the DHS S&T Directorate), I intent to leverage all 
government agencies/laboratories as well as private industry (large and 
small) and international partners/allies to rapidly make available 
mature (and nearly mature) capabilities to our Nation's first 
responders and DHS agencies tasked with protecting America. As I noted 
in my response to your Counter-MANPADS question above, because of my 
tenure at ONR in wartime and my knowledge of the portfolio and 
capabilities that exist there, at DHS, I would not hesitate to adapt 
and use those proven technologies (such as swimmer detection sonar 
networks) that our taxpayers have already invested in.

    Question 4. Will these plans include a full evaluation of systems 
operating now, such as the system developed and produced domestically 
and being used by Singapore's Navy?
    Answer. I think it would be wise to evaluate the operational 
effectiveness of the various swimmer detection devices both under 
development and in use in America and the rest of the world. I am 
personally familiar with the domestic U.S. system that has been 
installed and tested in Singapore. I had the opportunity to visit 
Singapore last fall and observe the integrated swimmer detection sonar/
radar/visual integrated network in operation. If confirmed, I would 
strive to make the best/affordable seaborne threat detection systems 
available for use in our harbors and port facilities.
Small Business
    Question 5. Another issue we touched on last week when we met was 
the ability of small businesses to bring forth ideas for securing our 
homeland to the Department. Businesses across New Hampshire have 
expressed frustration to me over their inability to ``get an audience'' 
with DHS. When you are at ONR, a company's ability to ``get an 
audience'' was typically not a problem. What are your plans to ensure 
innovative ideas and technologies are able to be brought to DHS for 
appropriate evaluation of their ability to provide solutions to 
homeland security challenges?
    Answer. As you noted, I had a reputation at ONR for being 
accessible to businesses (both large and small) as well as innovative/
entrepreneurial individuals to give their ideas ``an audience''. Often 
these unsolicited initiatives from outside government resulted in 
significant opportunities to improve the technological advantage our 
Navy and Marine Corps fields in defense of America. When concepts or 
inventions presented were not yet ready for further development/
funding, ONR program managers were candid with the providers and 
attempted to provide constructive recommendations or alternative 
approaches which would allow the offerer to reengage ONR with a product 
more closely aligned with Naval war fighting gaps and requirements. If 
confirmed, I will quickly evaluate the means and methods at DHS that 
are intended to encourage innovation and communication with business 
and determine their effectiveness. I will not hesitate to put in place 
those personal and web-based programs that I established at ONR to make 
the DHS S&T Directorate more ``customer'' accessible and friendly. 
Additionally, If confirmed, I will use all the tools which Congress has 
wisely established over the years, such as Small Business Innovative 
Research (SBIR) funding and processes to the fullest extent.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Admiral Jay M. Cohen
    On February 15, 2006, Charles McQueary, the former Under Secretary 
for Science and Technology at the Department of Homeland Security, 
testified before the House Science Committee. During his testimony, 
Secretary McQueary told the Committee that following Phase II of the 
Counter-MANPADS program, ``DHS will provide a report detailing the 
equipment performance, projected costs, and potential deployment 
options [of countermeasure systems.] The anticipated release date for 
the report is mid- to late-March 2006.''
    Dear Senator Boxer,
    You asked me several questions regarding the Counter-MANPADS 
program at DHS. First allow me to thank you for your strong personal 
interest and support to better protect our aviation fleet from 
terrorist attack.
    I am neither an employee of or consultant to DHS. I have not been 
made privy to the overdue DHS post-Phase II Counter-MANPADS program 
report. I have however asked DHS to get the report to you immediately. 
In the interim, DHS has provided the answers below to your questions. 
While they are not intended to be a substitute for the report, I hope 
they are helpful in explaining the status of this important program.
    While I am not presently knowledgeable of the DHS program, having 
recently completed more than 5 years as the Chief of Naval Research, 
responsible for the Office of Naval Research in the Department of the 
Navy in wartime, I am very familiar with the Tactical Air Directed 
Infra Red Counter Measures (TADIRCM) program. Navy research has been 
working on this important countermeasure for more than a decade at the 
Naval Research Laboratory, White Sands Proving Ground and China Lake, 
CA. This development program has resulted in a highly effective IR 
countermeasure device that has been successfully installed/tested on 
flying drone aircraft against actual MANPAD weapon firings. I 
understand that Naval Air Systems Command (working with commercial 
defense contractors) is in the process of transitioning this capability 
to Navy and Marine Corps F/A 18 aircraft and that some U.S. Army 
helicopters are already equipped with TADIRCM. If confirmed to be the 
next Under Secretary for Science and Technology at the Department of 
Homeland Security, I will bring my technical knowledge and program 
management experience to the DHS Counter-MANPADS program.
    If you think that there is more that I need to know before 
confirmation by the Senate, I would be pleased to meet with you and/or 
your staff at your convenience. If confirmed, I commit to meet with you 
and/or your staff within the month following my assumption of duties at 
DHS to clearly state the status of the Counter-MANPAD program and 
details of the way ahead to better protect our airline passengers, 
cargo and aircraft from attack.

    The Following Answers Were Provided by DHS:

    Question 1. When will this report be delivered to Congress?
    Answer. Our hope is this report will be delivered to the Congress 
on Monday, July 31st.

    Question 2. Will it include details on potential deployment 
options, as promised by Secretary McQueary? If not, when will those 
details be provided to Congress?
    Answer. The Phase II report discusses several potential deployment 
alternatives, including three example deployment quantities: 100 mixed 
wide-body aircraft, representative of the size of the U.S. Civil 
Reserve Airlift Fleet (CRAF); 600 wide-body passenger aircraft; and, a 
3,900 mix of wide- and narrow-body passenger aircraft. It presents cost 
metrics for the example quantities and discusses potential acquisition 
strategies and funding sources. The report also discusses key 
deployment risks and concerns.
    The Counter-MANPADS program is in the process of conducting a more 
complete assessment of potential alternatives, acquisition strategies, 
funding approaches, deployment risks and concerns. Another assessment 
of alternatives will be performed near the end of Phase III using 
updated cost of ownership estimates based on Phase III in-service 
operational data and other results, such as military technology 
protection and export issues. Those results will be reported to 
Congress at the end of Phase III.

    Question 3. It is my understanding that Phase III of the Counter-
MANPADS program will include the operational test and evaluation of two 
competing countermeasure systems. On what date will countermeasures be 
operational on actual commercial aircraft?
    Answer. During Phase III, one company will be installing systems on 
nine cargo aircraft for in-service operational evaluations. The first 
aircraft with the system installed is scheduled to begin flying in 
revenue service the first quarter of 2007.

    Question 4. What steps are necessary to ensure that the deployment 
of countermeasure systems are in compliance with the International 
Traffic in Arms Regulations?
    Answer. Under current interpretations of the International Traffic 
in Arms Regulations (ITAR), U.S. airlines would need to apply for an 
export license every time an aircraft with the Counter-MANPADS system 
installed was to fly outside the U.S., which would be unacceptable to 
airlines. Counter-MANPADS systems could not be deployed on foreign-
operated aircraft without additional licensing measures.
    Legislative relief would very likely be necessary to effectively 
deploy, operate and maintain the systems world-wide, which would 
consist of limited exceptions to the Arms Export Control Act and its 
implementing regulation, the International Traffic in Arms Regulation, 
or ITAR.
    The Counter-MANPADS program has been coordinating extensively with 
the Directorate of Defense Trade Controls (DDTC) at the Department of 
State, and other relevant agencies, such as the Defense Technology 
Security Agency (DTSA), the Air Force Research Laboratories (AFRL) and 
NSA, to define technology security requirements and develop deployment 
solutions that will both preserve the integrity of the system and 
protect sensitive military technology. Counter-MANPADS program 
representatives have recently met with DDTC-Policy and DDTC-Legislative 
personnel to discuss development of appropriate legislative language.

    Question 5. Will you work with the Department of Defense to ensure 
that commercial aircraft utilized by military personnel (such as the 
Civil Reserve Air Fleet) are protected from the threat posed by 
MANPADS?
    Answer. The CRAF program is a partnership between the Department of 
Defense and the U.S. aviation industry. The U.S. Transportation Command 
(TRANSCOM) administers this program through the Air Mobility Command 
(AMC). AMC has a working relationship with the U.S. Air Force and is 
working on total CRAF protection, including countermeasures for 
MANPADS. The Counter-MANPADS Program has involved TRANSCOM and AMC 
throughout Phases I and II; they have attended many of the program 
office reviews, are aware of our accomplishments, and, so far, are 
keenly interested in one of our DIRCM system approaches.
    If the decision is made to deploy Counter-MANPADS systems on the 
Civil Reserve Air Fleet (CRAF), DHS will work with the Department of 
Defense and the responsible airlines to equip those aircraft. Since the 
specific aircraft designated as CRAF can change monthly, the decision 
as to how to deploy is complicated. One of our cost estimates during 
Phase II was based on 100 wide-body aircraft, which is representative 
of the size of the first stage of the CRAF. This provides an estimate 
of cost, but further work needs to be done with DOD to provide a more 
comprehensive plan for CRAF deployment.

    Question 6. The Bush Administration only requested $4.8 million for 
the Counter-MANPADS program for Fiscal Year 2007. The Senate version of 
the Fiscal Year 2007 Homeland Security Appropriations bill provides an 
additional $35 million for a comprehensive passenger aircraft 
suitability assessment. If signed into law, will this assessment 
include the operational test and evaluation of the two competing 
countermeasure systems on commercial passenger aircraft?
    Answer. If the final Fiscal Year 2007 Homeland Security 
Appropriations bill includes an appropriation of $35 million to be 
spent for a comprehensive passenger aircraft suitability assessment, 
DHS will determine the most effective approach to achieve the 
objectives. This may include installing one or both of the competing 
countermeasure systems on commercial passenger aircraft.
                                 ______
                                 
   Response to Written Question Submitted by Hon. John E. Sununu to 
                         Nathaniel F. Wienecke
    Question. NMFS has before it Framework Adjustment 43 to the 
Northeast Multispecies Fishery Management Plan, which would impose 
limitations on the bycatch of haddock for New England herring vessels. 
A problem in New England has been that recent haddock classes have been 
exceptionally large preventing herring vessels from avoiding incidental 
catch.
    Under NMFS designated emergency rules enacted last year, which 
expired on June 6, 2006, there were limits on incidental catch of 
haddock allowed for New England herring vessels. Framework 43 is an 
effort to impose permanent rules.
    NMFS put Framework 43 out for comment on June 21, 2006 and the 
comment period has since closed (July 6, 2006). Unfortunately, I 
understand that completion of final rules for Framework 43 may not 
occur until late August or later. Until new rules can be finalized, New 
England herring fishermen are in a difficult situation: they can be 
prosecuted for the possession of as little as one haddock. This forces 
NE herring vessels to cease fishing or travel to distant areas to avoid 
catching haddock.
    While you do not focus exclusively on NMFS, what is the exact 
status of this item and when final rules can be expected?
    Answer. As you noted in your question, the comment period on the 
proposed rule for Framework 43 closed on July 6, 2006. NOAA Fisheries 
Service received several comments on the proposed rule, some of which 
raised issues that required further consideration. I am advised that 
NOAA Fisheries Service has prepared a final rule package for submission 
to the Secretary of Commerce which is currently undergoing final review 
within NOAA. We expect the final rule to become effective in early 
August.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Trent Lott to 
                          Sean T. Connaughton
    Question 1. I am very concerned about the state of our country's 
commercial shipbuilding and ship repair industry. The Congress, at my 
urging, recently changed the Title XI law to give MARAD more 
flexibility to make that program work better and authorized a small 
shipyard assistance program and an MSP vessel repair program. Please 
describe how you intend to ensure these programs work well. Please also 
provide any other ideas you have for increasing domestic shipbuilding 
and ship repair.
    Answer. The primary purpose of the Title XI program is to promote 
the growth and modernization of the U.S. merchant marine and U.S. 
shipyards. The program enables owners of eligible vessels and eligible 
shipyards to obtain long-term financing with attractive terms. The 
Administration is not currently seeking additional funds for the Title 
XI program, however, it is the prerogative of the Congress to do so if 
it desires. If funds are appropriated by Congress and if I am 
confirmed, I would seek to allocate those funds in a manner that would 
leverage private financing and export opportunities in order to 
maximize the benefits of increased Federal funding to the shipbuilding 
and repair industries.

    Question 2. After Hurricane Katrina, the Administration issued a 
temporary blanket Jones Act waiver for the shipment of bulk petroleum 
products and was slow in returning to case-by-case need determinations. 
If the Gulf oil patch takes another big hit from a hurricane, how will 
you protect U.S. Jones Act operators while facilitating oil flow?
    Answer. Since 1920, the Jones Act has been in place to encourage a 
strong U.S. merchant marine for both national defense and economic 
security by requiring the Nation's domestic waterborne commerce be 
reserved for vessels built in the United States, owned and crewed by 
American citizens, and registered under the American flag. The Jones 
Act continues to be the foundation for America's domestic shipping 
policy. The Customs Service has direct responsibility for enforcing the 
provisions of the Jones Act and is statutorily limited to granting 
waivers from the Act only in the interest of national defense or for a 
vessel in distress. If I am confirmed, I will work to ensure that any 
waivers granted by the Customs Service meet the letter and spirit of 
the law and are used only in exceptional circumstances.

    Question 3. The U.S.-flag fleet depends on U.S. preference cargo to 
remain competitive with foreign ships. I am concerned that some U.S. 
Government procurement officials in DOD and USAID exploit shipment 
scheduling notices to avoid them. Will you commit to the Committee that 
you will work with other agencies and departments to clarify policies 
with respect to scheduling shipments through MOUs or other written 
agreements?
    Answer. Yes.

    Question 4. MARAD's management of the National Defense Reserve 
Fleet scrapping program was not effective, but is recently improving. 
It takes too long to get rid of these leaky old ships that are tied up 
in VA, TX, and CA. How do you intend to address this potential hazard?
    Answer. I understand Congress's desire to remove obsolete vessels 
from the National Defense Reserve Fleet as quickly as possible. To 
accomplish this in a timely manner, the Maritime Administration must 
initially focus on the dismantling of the highest priority vessels. If 
confirmed, I will consider all viable alternatives to disposal, 
including the expansion of disposal capacity, exploring new 
technologies to speed and lower the costs of dismantling, examining 
innovative contracting mechanisms, and looking for alternatives to 
disposal such as utilizing vessels for artificial reefs and/or 
donations.

    Question 5. For years, this Administration has said that it is 
developing a SEA-21 plan to increase the use of short sea shipping in 
the U.S. to relieve highway and rail congestion, but we haven't seen it 
yet. I am concerned that the Administration isn't willing to invest 
real dollars in the program. What role do you plan to take to see this 
initiative comes to fruition?
    Answer. As a local government leader from a jurisdiction which I-95 
transverses, I know firsthand the imperative need to seek alternatives 
to the interstate highway system for our personal and commercial 
mobility. The Maritime Administration has done research on short sea 
shipping for several years. If confirmed, I will be an advocate within 
the Administration for the development and implementation of a robust 
short sea shipping system to help reduce growing freight congestion on 
our Nation's rail and highway systems.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Conrad Burns to 
                         Charles D. Nottingham
    Question 1. As you know, the goal of the Staggers Act is to strike 
a balance between providing financial stability for railroads and 
ensuring that the benefits of competition are available to shippers. In 
the past, there may have been some justification for focusing more on 
the revenue adequacy of railroads, given the difficult financial 
situation they faced. However, I am concerned that today, the balance 
has tipped too far in favor of the exclusive interests of the 
railroads, ignoring the fact that competition should be the goal of our 
Nation's rail network.
    Mr. Nottingham, do you believe the railroads still need to be 
protected from competition, or could both railroads and shippers 
benefit from a more market-driven industry? As railroads become more 
revenue adequate, is it reasonable to say that the assumptions 
underlying past STB efforts to protect the railroads should be 
revisited?
    Answer. The Staggers Act is generally viewed as having helped to 
successfully reverse the trend toward railroad bankruptcies and 
financial distress in the freight rail industry that existed prior to 
and during the early years of the Staggers Act. Today the Class I 
railroads are generally experiencing profits and increased demands for 
service. Based on most freight forecasts and economic and trade 
realities, it is reasonable to assume that the entire freight 
transportation sector, including railroads, should continue to 
experience heavy demand growth and, consequently, growth in revenues. 
The Government Accountability Office's (GAO) recent preliminary report 
released at the June 21, 2006 hearing of the Senate Subcommittee on 
Surface Transportation and Merchant Marine elaborates on the overall 
positive economic health of the freight railroads.
    If confirmed, I intend to closely examine whether the statutory, 
regulatory and case law regime that evolved during the earlier period 
of financial distress in the railroad industry still makes sense and is 
in the public interest in today's environment. While I need to refrain 
from prematurely taking a position on a matter or topic that could come 
before the STB for action, I can commit to giving the issues raised in 
your question full and fair consideration in the appropriate context.

    Question 2. On June 21, this committee held a hearing on the 
freight rail industry. During that hearing, the GAO provided 
preliminary results of their investigation into a variety of issues 
facing the industry today. What is your reaction to the finding that 
the ``share of potentially captive shippers who are paying the highest 
rates--those substantially above the threshold for rate relief--has 
increased''?
    Answer. I am concerned that the GAO's ``Preliminary Observations on 
Rates, Competition, and Capacity Issues'' (June 21, 2006) report 
included the preliminary finding that is described in your question. I 
am informed by STB staff that GAO plans to complete its report and 
share a draft with the STB for comment later this year. If confirmed, I 
expect to carefully analyze all of the report's official findings and 
to consider appropriate action to address any actionable problems that 
fall within the STB's jurisdiction.

    Question 3. What is your reaction to the GAO testimony that STB 
rate relief procedures are largely inaccessible to most shippers?
    Answer. The preliminary finding described in your question is cause 
for concern. Congress has tasked the STB with important conflict 
resolution responsibilities. It is important that the processes, costs 
and timelines associated with resolving conflicts do not become 
unreasonably burdensome so as to inhibit the public's right to avail 
themselves of the STB's dispute resolution procedures. I am also 
concerned that the preliminary GAO report notes on page 22 that the 
simplified guidelines for certain types of dispute resolution that have 
been in place since 1997 are viewed by shippers and railroads as 
``confusing.'' The recently issued rulemaking on small rate guidelines 
will hopefully mitigate some of these concerns. Again, when the final 
GAO report is issued, I will, if confirmed, carefully analyze all of 
the report's official findings and consider appropriate action.

    Question 4. Mr. Nottingham, when you were nominated to this 
position, I asked to you meet with shippers, both in Montana and 
nationwide. You agreed to do that, and I appreciate that. I understand 
you have already conducted a number of those meetings. After meeting 
with shippers, I would be interested to hear what your thoughts are on 
both the state of the rail industry as well as the role and reputation 
of the Surface Transportation Board.
    Answer. It has been a pleasure to meet with your constituents from 
the wheat and grain sector, as well as a wide-range of other STB 
stakeholders. These meetings have all been purely informational and 
courtesy meetings where I have endeavored to introduce myself, describe 
my qualifications and listen to concerns of the various stakeholders. I 
have studiously avoided making any commitment that would interfere with 
the impartial and fair consideration of matters that might come before 
the STB.
    The shippers and Montana constituents with whom I have met have 
communicated a consistently negative view of the freight rail industry 
and the STB's record of responsiveness to the concerns of shippers. I 
have not had extensive direct exposure to the freight railroad industry 
in a manner that would allow me to make conclusive statements about 
industry conditions or enable me to validate the concerns articulated 
by shippers. If confirmed, I would endeavor to become more familiar 
with the rail industry and to address any issues that warrant STB 
action.
    With regard to the STB, I am deeply concerned that important 
stakeholders from the shipping sector voice a consistent concern that 
the STB is overly protective of the freight rail industry and has 
allowed overly burdensome, costly and lengthy conflict resolution 
procedures to exist. If confirmed, I will work to ensure that the STB 
is an open and transparent organization and to remove any unnecessary 
obstacles to the prompt, efficient and fair resolution of disputes. 
Human resource management will play an important part in the future 
success of the STB to accomplish its mission. Approximately 60 percent 
of the STB's workforce is currently eligible for full retirement and 
the next Chair of the STB will undoubtedly be in a position to make 
important decisions impacting the agency's ability to retain valued 
employees and recruit talented and dedicated new employees.

    Question 5. I think we can all agree that investment in 
infrastructure is badly needed, and that there may be a role for the 
Federal Government to play in providing some incentives for that 
investment. Certainly, there is a public interest served by having a 
healthy railroad. But, I am concerned that captive markets won't see 
much of that investment. In Montana, that means we are losing potential 
job creation and economic growth opportunities.
    While the STB doesn't have a direct role in infrastructure 
expansion, I would be interested in your thoughts on how capacity 
investments can be shaped to provide enhanced competition and improved 
service in captive areas.
    Answer. Through its statutory authority to review entry and exit 
into and out of the freight rail industry, whether by new construction, 
acquisition of existing rail, mergers and consolidation, line 
acquisitions, leases and abandonments, the STB has significant powers 
that impact rail infrastructure decisions. Regions of the United States 
that are dependent on freight rail and that are generally served by 
only one railroad are understandably concerned that market forces alone 
may not result in significant new rail capacity investments in these 
so-called ``captive'' markets. If confirmed by the STB, I will be open 
to a wide-range of enhanced rail infrastructure investments to meet our 
Nation's growing freight needs. While I believe that no region should 
be excluded from enhanced rail investment and service and barriers to 
such investments should be eliminated wherever possible, I also believe 
that the private sector is generally more efficient at making the 
business decisions required to set investment priorities and schedules 
than the Federal Government. If confirmed, I would work closely with 
Congress and all stakeholders to identify investment strategies that 
would benefit all regions and markets.

    Question 6. As you know, there has been growing discussion focused 
on the antitrust exemptions of the railroads. There is a serious 
discussion as to whether those exemptions are still justified, and as I 
am sure you know, legislation has been introduced to repeal those 
exemptions and place the railroads back under U.S. antitrust laws.
    Will you, as Chairman of the STB, evaluate whether or not the 
antitrust exemptions for railroads should be repealed? Congress will 
have to act to repeal the exemptions, but I am wondering if you believe 
that the STB should be looking at antitrust issues or not.
    Answer. These issues are being studied by the Antitrust 
Modernization Commission. I will closely review the findings of that 
expert organization before attempting to formulate my own views in the 
matter.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Trent Lott to 
                         Charles D. Nottingham
    Question 1. Which do you think is the more effective approach for 
balancing the need for freight railroads to earn adequate revenues with 
the need to protect shippers from unreasonable rates--maximum rate 
regulation or the introduction of additional competition through open 
access or some other means?
    Answer. I am not an expert on the STB's procedures for assessing 
maximum rate reasonableness, and while I am generally familiar with the 
debate over competitive access in the railroad industry, I do not 
profess to know all of the details. Therefore, I do not believe I am in 
a position to answer this question at this time.

    Question 2. The stand-alone cost test used by the STB in 
determining the reasonableness of a rail rate was developed in the 
context of rate complaints involving coal. As defined by the STB, the 
test prohibits a railroad from charging a shipper more than what a 
hypothetical new, optimally efficient carrier would need to charge the 
complaining shipper if such a carrier were to design, build and operate 
a system to serve only that shipper and whatever other traffic is 
selected by the complaining shipper to be included in the traffic base. 
In your view, is the stand-alone cost test the appropriate test for 
determining the reasonableness of rates involving chemicals, 
manufactured products, and other goods that do not move in trainload 
quantities?
    Answer. The stand-alone cost (SAC) test has been upheld by the 
Federal judiciary and has been in use for many years. In my 
informational and courtesy meetings with STB stakeholders in recent 
weeks, I have heard many objections raised by shippers to the SAC test. 
Critics describe the high cost of developing a case using the SAC test 
and also complain that it is biased in favor of existing railroads. I 
believe that a set of new small rate guidelines could be responsive to 
the needs of shippers of smaller quantities. I should note that the 
freight rail industry has experienced enormous changes in the past 20 
years, including handling significant container traffic and entering a 
period of financial strength and profitability. In this changed 
environment, I do not believe that the STB needs to be wedded to tests 
or policies that were developed in response to different market 
conditions. If confirmed, I will keep an open mind on these issues, 
consult with Congress and stakeholders and pursue actions that are 
consistent with relevant laws and in the public interest.

    Question 2a. What, if any, alternatives to stand-alone costing do 
you believe should be explored?
    Answer. While I am not an expert on different tests of rate 
reasonableness in the railroad market, I understand that this is a 
critically important issue that the STB has attempted to address and 
will likely continue to do so. I need to be judicious in not offering 
personal opinions before I have had the benefit of extensive exposure 
to these issues. I am familiar with the June 21 GAO preliminary report 
on the freight rail industry which includes a discussion of alternative 
rate relief procedures and strategies, including: simplified guidelines 
to streamline the process, especially for smaller rate cases; increased 
use of arbitration; increased use of alternative cost approaches such 
as the long-run incremental cost approach. The GAO notes, however, that 
each of these approaches has advantages and drawbacks. I look forward 
to carefully reviewing the final GAO report and will, if confirmed, 
work to take appropriate action to address any formal findings or 
recommendations that are made in the final report. Whatever test of 
rate reasonableness is used, it is important that the national policy 
need for railroads to make additional significant investments to 
improve rail infrastructure is recognized and respected.

    Question 3. In regard to rail transportation, what in your judgment 
is the more serious problem--inadequate rail capacity or inadequate 
rail competition and how do both issues affect the economic well-being 
of railroads and shippers?
    Answer. This question identifies two very significant challenges 
that confront our national economy: freight demand that is outpacing 
rail capacity in many areas of the country; and the lack of effective 
rail competition in many parts of the country. I have much to learn on 
both of theses issues, but have extensive experience working on similar 
challenges that confront the Nation's highway system. I believe that we 
need to focus on increasing rail capacity to meet current and future 
demand, to relieve highway freight congestion; and to make rail service 
more reliable. If we succeed on these fronts, the economic conditions 
will be much more attractive for new entrants to take the risk and 
invest in the freight rail market. If confirmed, I will focus much of 
my energies on the need for environmental streamlining to ensure that 
important rail capacity improvement projects and applications for new 
rail service from new or expanding railroads do not get unnecessarily 
delayed by the environmental review process or by litigation. I have 
extensive experience in working on environmental streamlining and look 
forward to the opportunity to apply this experience at the STB.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Trent Lott to 
                         Robert L. Sumwalt III
    Question 1. What type of relationship do you believe is appropriate 
between the NTSB and other transportation agencies? What actions will 
you take in an effort to facilitate such relationships?
    Answer. I believe it is critical that the NTSB maintain an 
independent posture regarding other transportation agencies. The 
significance of NTSB's independent role was acknowledged by 
Congressional approval of the Independent Safety Board Act of 1974. 
This independence allows NTSB to autonomously investigate 
transportation safety issues and provide oversight of transportation 
regulatory agencies.
    However, the Safety Board must also maintain a professional working 
relationship with those agencies. Although the independence of NTSB 
investigations is paramount, I also recognize that the most effective 
means of improving transportation safety is to see the Board's safety 
recommendations implemented. Therefore, the relationships with other 
transportation agencies must not degrade into defensive camps. Rather, 
open dialogue, transparent coordination, and professional exchange must 
be the foundation of these relationships.
    If confirmed, in order to facilitate effective working 
relationships with transportation entities, I will ensure that NTSB 
safety recommendations are reasonable, well founded, and timely. When 
deficiencies are found in the efforts of other transportation agencies, 
I believe the Safety Board has a responsibility to firmly point out the 
problems, without seeking to disgrace the affected agency.

    Question 2. The largest numbers of transportation-related 
fatalities are on our Nation's highways where more than 40,000 people 
are killed each year. What do you believe the Board's role should be 
with respect to highway safety?
    Answer. I am very troubled that highway fatalities seem to have 
reached a plateau in recent years.
    The NTSB's enabling legislation states that the Safety Board will 
investigate selected highways accidents ``in cooperation with a 
State.'' Due to the shear number of highway accidents, it would be 
impractical and undesirable for NTSB to investigate each and every 
highway accident. In order to devote its investigative resources wisely 
the Safety Board must be selective in deciding which highway accidents 
and safety issues to investigate.
    Additionally, greater focus on the Board's safety advocacy role can 
improve the Board's impact on highway safety. I am aware that the Board 
currently has advocacy efforts underway on several highway issues such 
as improving child occupant protection, enacting primary seat belt 
enforcement laws, promoting youth highway safety, eliminating hard core 
drinking and driving, and improving school bus/grade crossing safety. 
Each of these initiatives are on the Board's list of Most Wanted 
Transportation Safety Improvements because they have demonstrated and 
measurable safety benefits. Although it is often up to states to enact 
laws to support highway safety improvements, the Safety Board should be 
a tireless advocate of these and other measures to improve safety on 
our Nation's highways.
    If confirmed, I will explore innovative ways to collaborate with 
state governments and the National Highway Traffic Safety 
Administration (NHTSA) to draw much needed attention to reducing 
highway traffic accidents involving serious injuries and fatalities. I 
will also explore ways to successfully accomplish outstanding highway-
related safety recommendations. Closing recommendations for the sake of 
closing them does not meet the Safety Board's objectives. I want to 
ensure that the integrity and intent of safety recommendations remain 
intact, and that they are adopted in a timely fashion to prevent 
further tragedies.

                                  <all>

</pre></body></html>
